<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:15 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Inouye, Leahy, Dorgan, 
and Durbin.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

STATEMENTS OF:
        HON. JAMES G. ROCHE, SECRETARY
        GENERAL JOHN P. JUMPER, CHIEF OF STAFF

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. I apologize, Mr. Secretary and General. I 
was Chair of the Senate, and my relief did not show up. But 
we're happy to have you here this morning. It's an important 
time for all of us, very important hearing concerning the 
future of the Air Force.
    As you know, some of us just returned from a trip to Iraq 
and Afghanistan, and I know you're confronted with the 
difficult task of modernizing the Air Force. We're pleased to 
have your leadership.
    I'll put my statement completely in the record because I am 
late.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    Secretary Roche, General Jumper, it is good to welcome you 
back before the subcommittee at this time of importance for the 
nation and the Air Force. As we meet here today, the Air Force 
continues to support the nation's forces committed to 
operations in Iraq and Afghanistan. At the same time you are 
both confronted with the difficult task of modernizing the Air 
Force. The country is fortunate to be able to call upon your 
leadership.
    The committee has begun its review of the fiscal year 2005 
Defense budget. Clear from the President's request is the Air 
Force effort to modernize fighters by investing in the F/A-22 
and the Joint Strike Fighter, and to commit the Department to 
the next generation of space capability.
    We look forward to hearing today of your priorities in the 
budget request.
    We will make your full statements a part of the committee's 
record.
    Before you proceed, I would like to ask my colleague from 
Hawaii if he has any opening remarks.

    Senator Stevens. All of your statements are completely in 
the record, by the way.
    Senator Inouye, our co-chairman, do you have a statement?

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Yes, I did want to put the rest of my 
statement in the record. Mr. Chairman, I wish to begin by 
congratulating the Secretary and the General for the 
performance of the men and women in the Air Force in Iraq, 
Afghanistan, and other places around the world. And I'd like to 
thank all of you and your command, because we are in your debt. 
Thank you very much for your service.
    And may I ask that the rest of the statement be made part 
of the record?
    Senator Stevens. Yes, sir.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Secretary Roche, General Jumper thank you for being here 
today to testify before this subcommittee on your fiscal year 
2005 budget request.
    Gentlemen, I want to begin by congratulating you on the 
performance of the men and women in the Air Force in Iraq, 
Afghanistan and around the world.
    The last few years have been very demanding on our military 
with frequent family separations from overseas deployments, 
periods of intense combat which heighten concern for our loved 
ones, and the stress that comes from knowing that we are living 
in a very dangerous era.
    Particularly at times like these, it is critical that we 
demonstrate our support and express our thanks to these fine 
officers and airmen, and their families.
    I look forward to hearing from you today about how the 
fiscal year 2005 budget request will accomplish this task.
    Mr. Chairman, I want to note also that there are several 
important issues in this budget request. The Air Force is 
recommending changes in its aviation force structure, with the 
retirement of ten F-117s. Furthermore, many other adjustments 
are being contemplated.
    For instance, I am told you are considering buying 
additional F-15 and F-16 fighters, retiring C-5as, and 
restoring B-1 bombers back to the fleet.
    Some of these might prove controversial, and I encourage 
you to include us in the decision making process as you 
proceed.
    Gentlemen, the proposed budget includes an increase of over 
$4 billion in your investment accounts, while the other 
services did not fare as well. I understand that some of your 
increase is due to classified activities, but I would like you 
to address the unclassified increases for space and other 
programs today and why they are priorities at this juncture.
    I look forward to hearing your remarks today on these and 
other topics as we review the state of the Air Force.
    Finally, Mr. Secretary, General Jumper I want to thank each 
of you for your service to the Air Force and the country. We 
are in your debt.

    Senator Stevens. Senator Dorgan, do you have a statement?
    Senator Dorgan. Mr. Chairman, I do intend to ask some 
questions today about a number of things, but let me, again, 
echo your comments and the comments of Senator Inouye. I 
appreciate the work that the Secretary does, and General 
Jumper's, and the men and women of the Air Force.
    Senator Stevens. Thank you, sir.
    I have a statement from Senator Burns for the record.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I would like to thank Secretary 
Roche and General Jumper for coming to brief this Committee on 
the Air Force budget, and I thank you for your service to our 
great Nation. Your airmen are critical to winning this global 
war on terror. I intend to honor our men and women serving and 
those who have made the ultimate sacrifice for our country by 
ensuring that our forces have the resources they need. With 
16,000 airmen deployed to 25 locations in southwest Asia, 
including 12 new bases, our Air Force is fully committed to 
support the Global War on Terror.
    Members of the 120th Fighter wing of the Montana Air 
National Guard were one of many Air Guard units mobilized and 
deployed to Saudi Arabia last year in support of the war. As 
part of the Air and Space Expeditionary Forces (AEF), they have 
performed superbly. I urge you to ensure the Air National Guard 
units called to active duty have the most current equipment 
available. We must depart from the cold war premise that equips 
the Air Guard with older generation equipment transitioned from 
Active Duty Air Force units. Today, our Air Force Guard and 
Reserve components fight beside their active counterparts. I 
urge you to ensure that all units deployed overseas are 
equipped with the best technology our country can provide.
    We have witnessed the successful employment of unmanned 
aircraft within our forces. We have seen an increase in the 
number of Unmanned Air Vehicles in use by our forces at all 
echelons. Feedback I have seen from the soldiers on the ground 
is that they wish they had more of these systems, not less. I 
urge the Air Force to consider expanding the force structure of 
unmanned aircraft into the Air National Guard. The Air Force 
would benefit from retention of a strategic reserve of this 
capability as operational tempo subsides in the coming years, 
and the Air National Guard would benefit from force structure 
that could support homeland security or disaster relief 
missions. I will be interested to hear whether or not you have 
plans for achieving this balance between the active Air Force 
and Air National Guard.
    I am encouraged by Air Force investments in advanced 
technology that enables us to maintain superiority in sensor 
coverage and the ability to provide rapid, precise application 
of force. This investment is critical to our continued success 
in operations under our new operational model, which relies on 
precision engagement weapons and rapid identification of 
targets to augment traditional firepower and maneuver 
formations. I would hope that the Air Force continues its 
investment in the development of cutting edge, creative 
applications for the warfighter of today and the future.
    The key to future combat is knowledge provided by rapid 
processing of data from pervasive sensors, empowered with quick 
response precision engagement capability. Air Force programs 
like satellite communications and space based radar support the 
growth in bandwidth required of our combat network resulting 
from integration of high resolution multi-spectral sensors, 
precision weapons, and maneuver formations.
    I read daily of our forces in the field using American 
ingenuity to develop unconventional solutions to solve the many 
unconventional problems they face. I appreciate your efforts as 
the leaders of the Air Force to seek innovation in technology, 
acquisition processes, and doctrine to meet the challenges of 
the evolving battlefield.
    Again, I thank you for being here today and look forward to 
the discussion this morning. Thank you.

    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, I join you in welcoming the 
distinguished Secretary and Chief of Staff of the Air Force, 
and commend them on the outstanding leadership they're 
providing to the Air Force at this very important time.
    Thank you.
    Senator Stevens. Maybe I should be late every morning, Mr. 
Secretary.
    We'd get to you quicker this way.
    I thank the Senators for their courtesy, and we'd be 
pleased to hear your statement.
    Dr. Roche. Thank you, Mr. Chairman. We very much appreciate 
the comments you made about our wonderful airmen. They really 
are spectacular young men and women, and we're terribly proud 
of them.
    So, Mr. Chairman, Senator Inouye, and members of the 
committee, it is our great pleasure to appear before this 
distinguished committee and to represent the 700,000 Active, 
Guard, Reserve, and civilian airmen who are engaged in 
defending our Nation. General John Jumper and I are extremely 
proud of their achievements and service this past year and the 
years before that. They have contributed significantly to our 
Nation's global fight against terrorism, to our military 
successes in Iraq and Afghanistan, and to our homeland defense 
mission. They are devoted servants to our Nation, and have our 
utmost respect and confidence.
    And, sir, I would also want to point out how honored I am 
to serve alongside such an outstanding leader as General John 
Jumper, a wonderful officer, a superb gentleman, a renaissance 
man, and a good friend.
    Our highest priority continues to be warfighting through 
delivering capabilities that enable us to remain decisive in 
combat. Through the efforts of this committee, your colleagues 
in the Congress, and the dedicated professionals of the 
Department, we are proud to report we are meeting these 
objectives.
    As highlighted in our written testimony, we continue 
adapting the Air Force to realize the President's and Secretary 
Rumsfeld's view of transformation. Our strategy is to exploit 
the sources of strength that give us the military advantages we 
enjoy today. Our goal is to build a portfolio of advantages, 
one that uses operational concepts to guide investments that's 
relevant to the joint character of warfare and is useful in the 
increasingly asymmetric conduct of warfare. With the support of 
this committee, we have delivered combat effects never before 
imaginable on the battlefield, and we'll sustain this dominance 
in the future. The portfolio of capabilities, which I will be 
speaking of, will continue to provide joint force air and space 
dominance, enable battlefield operations, and produce decisive 
joint-combat effects.

                                 F/A-22

    Let me start with the F/A-22, Mr. Chairman. Today, the F/A-
22 is not just a program on a piece of paper, but a real 
aircraft, a revolutionary aircraft that is moving to the field 
now. Ten jets assigned to Edwards Air Force Base, California, 
are completing developmental tests, and they're well into 
operational tests. At Nellis Air Force Base, Nevada, five 
Raptors are developing operational tactics and techniques. And 
at Tyndall Air Force Base, Florida, four jets, and counting, 
are training pilots.
    I recently visited our airmen at Tyndall--I've been to all 
of the facilities, but most recently at Tyndall Air Force 
Base--and heard firsthand the glowing reports of this 
transformational weapons system, from the airmen who maintain 
it and operate it. In fact, as I departed, two Raptors were 
taxiing back from another successful mission. Later, I was told 
that both aircraft landed Code 1, which means they'd be ready 
to go for its next mission after routine servicing.
    With these aircraft in the inventory, we are now focusing 
on operational testing, expanding the flight envelope, 
integrating more weapons, and improving our maintenance 
processes. One year ago, we had completed 16 missile shots. 
Today, after 5,000 flight test hours, we've had 47 successful 
missile shots, and major elements, flight envelope and weapons 
envelope, are cleared for Initial Operational Test and 
Evaluation (IOT&E) start. In fact, as General Jumper will tell 
you, pilots flying the aircraft today believe that if war were 
to break out, they would like to take the aircraft to war 
today.
    Additionally, through your commitment, stable production of 
the F/A-22 program is producing cost savings. Earlier this 
year, we exercised an option to add one F/A-22 aircraft to our 
LOT-3 contract, increasing our buy to 21 planes for the price 
of 20. While such dramatic savings won't be available every 
year, this is happening because of gains in supplier 
confidence, which led to reduced costs. With 65 percent of 
aircraft costs associated with over 1,400 suppliers in 46 
States, a firm commitment to program stability is absolutely 
essential to create conditions where suppliers view efficiency 
gains as a path to increased orders. Again, your commitment to 
F/A-22 program stability is what has allowed this to happen, 
and we thank you.
    At the same time as we strive for program stability, we are 
transforming the F/A-22's capabilities. Through deliberate 
spiral development, we are integrating new avionics and weapons 
to make it a premier air-to-ground strike system, as well. In 
addition to obtaining and sustaining air dominance, the F/A-22 
will counter existing and emerging threats, such as advanced 
surface-to-air missile systems of the SA-20 and the SA-400 
family, time-sensitive targets, moving targets, and cruise 
missiles, protecting our Navy colleagues, our deployed soldiers 
and airmen, or, God forbid, even our homeland, to a greater 
fidelity than anything we have in our legacy systems.
    And we just completed Defense Acquisition Board the day 
before yesterday, and it was characterized by all members as 
very encouraging. Members were satisfied. We expect to enter 
into an initial operational test and evaluation near the end of 
April, but it'll be event-driven. As of now, we see no 
impediments to enter.
    Also as part of a test, we were required to do a test 
against the F-15, because there had been requirement that the 
F/A-22 demonstrate that it was at least twice as good as the F-
15 in air-to-air combat. The head of the Air Force test 
organization tells General Jumper and me that, in fact, the F/
A-22 proved to be roughly five times as good as the F-15.
    We have also just completed LOT-4 negotiations for 22 
aircraft. That means that we are at a position where the 
recurring cost--not including research and development, but the 
recurring cost of each airplane is under $110 million a copy. 
We are on the price curve, as we had wished to be. And, again, 
we thank you for the stability that's allowed us to do that.
    Our F/A-22 budget request continues much needed program 
stability and supports its transition from development to 
operational tests with Initial Operational Capability (IOC) at 
the end of calendar year 2005. The $4.8 billion request 
includes funding for production of 24 aircraft, and continues 
our smooth ramp-up to 32 jets per year. As you recall from last 
year, Mr. Chairman, we have decided not to try and go beyond 32 
because it would require additional facilities and other 
things. We much prefer to have something that's stable, because 
when you have a stable production line, you can work very hard 
at finding efficiencies in order to get costs down and get 
reliability up.
    We look forward to the delivery of the first F/A-22 to 
Langley Air Force Base, Virginia, this November as part of the 
first operational squadron. IOC is clearly within sight, and 
the Air Force is postured to deliver this transformational 
capability, as anticipated, to the Joint Warfighter.

                       JOINT STRIKE FIGHTER--F-35

    With respect to the Joint Strike Fighter, a complementary 
capability to the F/A-22 should be provided by the F-35 Joint 
Strike Fighter. This aircraft is expected to provide a 
sustainable, focused close air-support platform for the Joint 
Force commander. The benefits potentially to be gained from the 
F-35 commonality across services and major allies will have no 
comparison to any system in the fleet today.
    With the F-35 only in its second year now of an 11-year 
development program, we can effectively apply the production 
quality and Operational Test and Evaluation (OT&E) lessons that 
we learned on the F/A-22. In fact, every time there's a Defense 
Acquisition Board meeting on the F/A-22, we require the F-35 
team to be there to learn any lessons so that they don't repeat 
any mistakes we might have made.
    Together, these aircraft will be integral to our support of 
ground forces in various environments flying different 
profiles. They are not the same aircraft; they are very 
different aircraft. They are not substitutes; they are 
complements.
    We, in the Air Force, are in the process of improving our 
commitment to close air-support capability by planning to 
acquire Short Takeoff and Vertical Landing (STOVL) and STOVL 
variants of the F-35 to better support land forces, be they 
Marine, Army, Coalition, or special operators.
    In moving our Air Force into the STOVL world, with an 
emphasis on the short takeoff for air support, we will look to 
gain training efficiencies by working jointly with the Marine 
Corps on facility use and course development. Additionally, we 
are pressing for the early development of STOVL capability in 
the program cycle to reduce risk.
    Right now, there's a weight problem in the F-35 program, 
and it most greatly affects the STOVL variant. We are working 
with the Navy and with the people in Acquisition and the 
Program Office to change the program so that risk reduction on 
the STOVL becomes one of the paramount things to do in the 
short-term, because if we cannot build a STOVL aircraft, then 
we really don't--we should not proceed with the F-35 program.
    A STOVL is key for a number of reasons--commonality with 
the Conventional Take Off and Landing (CTOL), the fact that the 
Marine Corps are very dependent on it, the fact that we will 
become dependent on it. If we were merely to be designing a 
plane to replace the F-16, we would probably have taken a 
different route.
    We believe this is doable, and we believe it is what you 
would want us to do, which was to find the toughest part of the 
program and to demonstrate to you that, in fact, the program is 
a viable program. Since the Air Force will be taking over this 
program sometime in June, end of May or June, we are committed 
to being as transparent as possible to you about the program--
when there's a problem, tell you about the problems; when 
there's something good, tell you about something good. Right 
now we think what we owe you most is to prove that, in fact, 
the short takeoff and landing aircraft can be developed from 
this design, and can do it with the amount of weight that's 
reasonable.

                                BOMBERS

    With respect to our bombers, Mr. Chairman, during Operation 
Iraqi Freedom and Operation Enduring Freedom we continue to 
demonstrate our ability to link air and ground forces with our 
airmen combat controllers, turning the battlefield air 
operations from a concept into a reality, and giving Joint 
Forces the tools they need to bring devastating fires to bear. 
These young airmen, who operate on the ground, sometimes to the 
back of forces in remote locations, have proven their worth to 
our country, and they and their colleagues, as part of our 
battlefield airmen field, will only be developing over time. 
And we are working with the United States Army--in particular, 
General Jumper and General Schoomaker--to assure that, as the 
Army reorganizes and has smaller maneuver combat units, that we 
will have the airmen for each of those units to be able to 
bring air power to bear to support those ground forces.

                                  B-52

    A decade ago, we were concerned with the relevance of the 
B-52. And, as John has pointed out, General LeMay never would 
have predicted we'd employ B-52s from 39,000 feet in a close 
air-support mission with such precision, but he would be proud.
    And last year, during Operation Iraqi Freedom, reserve B-52 
units from Louisiana figured out how to incorporate the 
Litening II sensor pod on a ``BUFF'', and conducted the first 
combat laser-guided employment. We were able to drop Laser-
Guided Bombs (LGBs) from a B-52. The first time the crew saw 
the targets, they were actually attacking, and it became--these 
planes became the two weapons of choice for the Combined Forces 
Air Component Commander (CFACC) in the area, because they could 
do so much more with them. We are now expanding that to cover 
about 14 of the B-52s.
    At one point, there were those who were writing off the B-
1, but we adapted the fleet. Today, we are using it in ways 
never conceived. We removed the stores bay fuel tank to give it 
increased carriage capability, and we developed tactics that 
make it useful for new missions. With increased range and 
duration over a target area measured in hours because of the 
changed way we employ this aircraft, and the capability of 
stacking aircraft in benign areas for execution of time-
sensitive or emerging targets, the B-1 and our whole bomber 
force--have become theater weapons of choice, and we're 
especially proud of the men and women who have made the B-1 so 
effective.
    Our bomber fleet of B-1s, B-2s, and B-52s are combat-
proven. Thanks to this committee, increased spare-parts funding 
and your commitment to platform modernization and fleet 
consolidation have resulted in record mission-capable rates and 
a fleet that is more lethal and survivable. We truly have 
achieved something together, sir.

                                  B-1

    Our B-1s achieved their highest mission-capability rate in 
history thanks to a smaller fleet, improved availability of 
spares, and the concentration on two bases with the best 
maintainers split between those two bases, instead of five. 
We've done well.

                                  B-2

    The B-2 fleet story is similar. We currently have 21 B-2 
aircraft achieving their best mission-capable rate since its 
IOC in 1997. With congressional support, shelters are now 
available to support global B-2 expeditionary operations.
    Today, we are investing in future technologies for enabling 
long-range strike for 2025 and beyond. Over the next year or 
so, we will determine what form that long-range strike 
capability will take. Our long-range strike strategy and 
investment plan will sustain our legacy force and provide a 
future stealthy, possibly regional bomber to deliver combatant 
commanders combat effects. When we say ``regional bomber'', we 
mean a bomber that is big enough to carry a number of weapons, 
and stealthy, able to fight or to evade a fight and, thereby, 
be able to be daytime stealth, because right now all our 
stealthy systems can only be operated at night. The exact range 
is to be determined, but could be something like three-quarters 
that of a B-2 or, for certain design, might even exceed that of 
a B-2.

                                  C-17

    C-17 next, sir. Another warfighting success story rests 
with a key enabler of our strategic mobility, the C-17, and 
this committee has been heavily involved in it from the very, 
very beginning. Therefore, we're proud to say that we have a 
fleet that now includes 116 aircraft, of which 79 are available 
for immediate global mobility with a mission-capable rate of 
86.7. This is the highest mission-capable rate in our manned-
aircraft fleet.
    Combat employment of the C-17 has been even more 
impressive, and would not have been possible without the 
support of you and your colleagues, Mr. Chairman. For instance, 
while we were constrained from access by land, 15 Air Force C-
17s airdropped over 950 paratroopers from the 173rd Airborne 
Brigade, and 23 airmen, into Northern Iraq. This successful 
mission opened Bashur airfield and assured the United States 
(U.S.) ground forces could be resupplied in the northern part 
of Iraq. As of today, the C-17 has flown the bulk of U.S. 
airlift missions supporting Operation Iraqi Freedom and 
Operation Enduring Freedom flying over 40 percent of all 
aircraft sorties, delivering 260,000 tons of cargo. The 
additional 60 C-17s approved in the multi-year buy is a 
continued step in the right direction to support this nation's 
airlift requirements. With your committee's support, the C-17 
program and the multi-year funding profile provides the 
stability and maximizes production, while enabling suppliers to 
gain efficiencies, providing cost savings. We still believe 
that the 60 multi-year, as you've allowed us to do it, sir, 
enables us to save at least $1 billion over the course of the 
program. That's equal to four more planes. We are getting 60 
planes for roughly the price of 56.

                                TANKERS

    Tankers, Mr. Chairman. As you know, our tanker 
recapitalization initiative is on hold. The initiative is 
complicated enough, as you know, so I am in complete agreement 
with Secretary Rumsfeld's desire to review the program and 
ensure that it is not tainted in any way.
    Meanwhile, we are programming money, starting at fiscal 
year 2006, to conduct a KCX tanker replacement program, and 
that has been our plan all along. As a critical joint enabler 
of U.S. power projection, our global aerial refueling fleet 
serves Air Force, Navy, Marine Corps, and Coalition aircraft. 
Recapitalization of the KC-135 fleet, over 540 aerial refueling 
aircraft, will clearly take years to complete, and their 
average age, as you are well aware, is roughly 43 years. The 
Air Force is committed to an acquisition approach for this 
program that brings the best capability to the Joint Warfighter 
at the lowest possible cost and in the most efficient manner.

                        UNMANNED AERIAL VEHICLES

    If I may now, I'll just touch on Unmanned Aerial Vehicles 
(UAVs). We, again, would like to thank this committee for its 
contribution to our UAV force and remotely piloted aircraft. I 
know, personally, a number of you were interested in this 
subject long before the services were, and now I think you can 
point with pride to your early positions.
    Since beginning operations with these transformational 
systems, you have enabled us to make this a valuable asset in 
the conduct of modern-day warfare and the prosecution of time-
sensitive targets. In just 2 years, these aircraft have evolved 
from intelligence platforms used to see over the next hill, 
into systems that can now provide Joint and Coalition Forces 
with intelligence, surveillance, reconnaissance, target 
acquisition, and, in the case of the armed Predator, direct 
attack.

                        OPERATION IRAQI FREEDOM

    During Operation Iraqi Freedom, we further refined Predator 
capabilities, as well as Global Hawk capabilities, sending 
realtime Predator feeds to other airborne platforms and to 
ground forces. Now, in fact, we have 20-some of these units we 
call Rover 2's, which are the--to downlink instruments from the 
Predator to the ground forces, that they're going to use in 
Iraq.
    Being able to run five simultaneous combat orbits through 
advanced technology and tactics development was also 
demonstrated. Innovations in our laser Hellfire operation saved 
lives and refined the standards for time-sensitive targeting. 
Last year, we used Predators, as well as our Global Hawk UAV, 
to assist in the effort to preclude Scud launches from the 
western desert of Iraq. Integrated with special operations and 
other air assets, these unmanned aircraft allowed small teams 
to own and control 6 million acres of territory that had been 
the launching points for dozens of Scud missiles during the 
1991 gulf war. With small teams, with that kind of air 
surveillance, backed up by attack aircraft, we suppressed the 
western part of Iraq.
    Mr. Chairman, I know you know that we, in fact, were able 
to practice with the same people, the leaders of this, in the 
western part of the United States night after night after 
night, quite secretly. Our range is the size of Connecticut. 
Two Connecticuts make the size of western Iraq. We moved that 
identical team right over, and these were our Army folk, some 
Navy, Air Force, some Coalition allies, special operators, who 
had trained night after night together, and then we moved them.
    Working with other intelligence/surveillance/reconnaissance 
assets, the Predator also provided target acquisition and 
conducted direct attacks on targets where the chances of 
collateral damage were high. We loved the story of a pilot 
named Yvanna, and she took her Predator to remove Baghdad Bob 
off the airwaves. She had to destroy his satellite dish, 
antennae, and generator, and it was set up only a few yards 
away from international media antennaes, and very close to a 
mosque. She operated the Predator slowly, as she said. As you 
know, Mr. Chairman, this thing only can go 70 knots, at best. 
But she came in slowly, to be very quiet. She coordinated with 
the Combat Air Operations Center (CAOC) in the Kingdom of Saudi 
Arabia. She was flying the vehicle from the United States. She 
flew over downtown Baghdad. She found the target, made sure 
that the laser beamed exactly the right spot, and blew it away, 
and the other media never even noticed. It was a beautiful job, 
and there was no collateral damage.

                              GLOBAL HAWK

    Another example that we're very proud of is the work of the 
Global Hawk with our Joint Surveillance Targeting Attack Radar 
System (JOINTSTARS) working against the Medina Division in the 
midst of a sandstorm. As my colleague often points out, when 
people talked about a lull in the war, I don't think they ever 
asked the commander of the Medina Division, because he was 
certainly not experiencing a lull, and he found that if he 
moved, he could be identified, and his units were killed.

                                PREDATOR

    Examples like these reinforce our current plan for a force 
of 68 Predator A's. We expect many of our ongoing initiatives 
in this platform to pay big dividends. Developing multi-
spectral sensors, improving our weapons integration and 
communication links remain top priorities for our Predator 
force.
    For Predator B production, General Jumper and I have 
directed a more deliberate acquisition program to ensure we 
deliver an effective and sustainable hunter/killer capability 
to the warfighter. And John just visited the Predator B 
yesterday, and he may want to comment on it.
    We have also reviewed the fielding strategy to get us up to 
60 aircraft, the requisite sensors, and ground stations. This 
will allow for early deliveries of interim combat capability, 
support near-term requirements, while ensuring a disciplined 
development program.
    There's a lot we could go on about the Global Hawk, sir. We 
are going to be ordering 34 of these over the Future Years 
Defense Plan (FYDP). These were used differently than ever 
intended during the Iraqi War. Our young teams taught us how 
these things should be used in ways we never envisioned, and we 
are just delighted that they have applied their brains and come 
back with some wonderful new doctrine and tactics.
    In space, sir, may I comment that the leadership--under the 
leadership of Under Secretary of the Air Force Pete Teets, we 
are working to put our space programs on track. Pete inherited 
a number of ongoing programs that needed revitalizing. Besides 
working programs, he has increased the unity of effort among 
the Air Force, the National Reconnaissance Office, and 
intelligence community in ways that we have never seen in the 
past. I can think of no one more knowledgeable to lead our 
space efforts and our space personnel. Recognizing these space 
professionals as a segment of warriors requiring special 
attention, Pete Teets has developed a roadmap designed to 
develop more in-depth expertise in operational and technical 
space specialties.
    This evolving expertise served us well in Operation Iraqi 
Freedom, where Air Force General Buzz Moseley was both the 
CFACC and the senior space authority for all Joint and 
Coalition space activities. These improvements will continue to 
enhance space support for the warfighter, bring a joint 
perspective to our Department of Defense's executive agents--
our role as the Department of Defense's executive agent for 
space.
    Our next step in space will be to focus on what we call 
Joint Warfighting in space, a new initiative that General 
Jumper and I are trying to undertake. This focus area strives 
to develop rapidly launched, responsive, and survivable 
Microsats that advances our ability to protect our space assets 
and enhances our direct support to Joint Force commanders 
throughout the globe. Part of that support includes Command and 
Control (C\2\) networks. Using both air and space media, we 
envision a C\2\ constellation that is robust, a protected 
network, and globally based command and control system that 
accomplishes all levels of the battle. This network is one that 
allows machines to do the integration and fusion, but leaves 
combat experience and judgement to leaders. It uses battlefield 
management command and control that will consist of command 
sensors--command centers, sensors, and systems, like space-
based radar (SBR), transformational satellite (TSAT) 
communications, Global Hawk, Predator, other drones, airborne--
AMTI and GMTI--that's airborne moving target indicator and 
ground moving target indicator--distribute a common ground 
picture in our air operations centers, all geared towards 
achieving the objectives of the joint battlefield commander. We 
are at the very early stages, and now we're thinking through 
what the architecture ought to be.
    Mr. Chairman, our 2005 budget supports the Air Force's 
joint focus. The $98.5 billion budget request invests in a 
portfolio of military advantages, advantages that depend on our 
ability to develop and maintain our airmen, maintain our 
readiness, improve our infrastructure, and provide decisive 
effects-based capabilities to the Joint Force commander 
anytime, anyplace, under any condition. Our budget request 
increases both Research Development Test and Evaluation (RTD&E) 
and procurement to support our emphasis on transformation and 
modernization, consistent with the strategy we discussed.

                    FISCAL YEAR 2005 BUDGET REQUEST

    In the fiscal year 2005 budget request, we make a 
significant investment in a number of critical joint systems--
14 C-17s, 11 C-130J's, seven Predators, A's and two B's, four 
Global Hawks, and joint space capabilities, including 
transformational communications, space-based radar, and 
military satellite communications (SATCOM). We're also 
investing in joint weapons, including more than 23,000 Joint 
Direct Attack Munitions (JDAMs). Our bottom line, Mr. Chairman, 
is that we are committed to the joint fight. In fact, joint 
enablers account for roughly 50 percent of the Air Force's real 
budget growth.

                      SUPPLEMENTAL APPROPRIATIONS

    Finally, we know there are concerns with respect to our 
ability to continue operating without a supplemental. In the 
Air Force, we have the ability to cash-flow into fiscal year 
2005, preserving our ability of operating at home and abroad. 
This assumes we get no additional bills in any kind of 
rebalancing. Right now, we see ourselves about $2 billion 
short, and that's because of some bills that have come, plus 
some other changes inside the Air Force, and we are looking for 
ways to reprogram to handle those.
    Mr. Chairman and members of the committee, I am proud to be 
a part of the finest Air Force in the world, and I'm honored to 
be part of the joint team that has done so much to defend 
America and our interests. With your continued support and the 
investments--that this budget makes in adapting our force to 
the demands of this new era, we will continue to deliver for 
our Nation.

                           PREPARED STATEMENT

    I look forward to your questions. Thank you so much for all 
your support, sir.
    [The statement follows:]
               Prepared Statement of Hon. James G. Roche
    Mr. Chairman, Senator Inouye, and distinguished members of the 
committee, the Air Force has an unlimited horizon for air and space 
capabilities. Our Service was borne of innovation, and we remain 
focused on identifying and developing the concepts of operations, 
advanced technologies, and integrated operations required to provide 
the joint force with unprecedented capabilities and to remain the 
world's dominant air and space force.
    Throughout our distinguished history, America's Air Force has 
remained the world's premier air and space power because of our 
professional airmen, our investment in warfighting technology, and our 
ability to integrate our people and systems together to produce 
decisive effects. These Air Force competencies are the foundation that 
will ensure we are prepared for the unknown threats of an uncertain 
future. They will ensure that our Combatant Commanders have the tools 
they need to maintain a broad and sustained advantage over any emerging 
adversaries.
    In this strategic environment of the 21st century, and along with 
our sister services, our Air Force will continue to fulfill our 
obligation to protect America, deter aggression, assure our allies, and 
defeat our enemies. As we adapt the Air Force to the demands of this 
era, we remain committed to fulfilling our global commitments as part 
of the joint warfighting team. In partnership, and with the continuing 
assistance of the Congress, we will shape the force to meet the needs 
of this century, fight the Global War on Terrorism, and defend our 
nation.
    The 2004 Posture Statement is our vision for the upcoming year and 
is the blueprint we will follow to sustain our air and space dominance 
in the future. We are America's Air Force--disciplined airmen, dominant 
in warfighting, decisive in conflict.
                              introduction
    In 2003, U.S. and coalition military operations produced 
unprecedented mission successes--across the spectrum of conflict and 
around the globe. The joint warfighting team demonstrated combat 
capability never previously witnessed in the history of conflict. 
Integrating capabilities from air, land, sea, and space, the U.S. and 
coalition allies achieved considerable progress in the ongoing Global 
War on Terrorism. In our most recent engagements, our armed forces 
fulfilled our immediate obligations to defend America, deter 
aggression, assure our allies, and defeat our enemies.
    The foundation of these achievements can be found in the Department 
of Defense's (DOD) commitment to teamwork and excellence. Operation 
IRAQI FREEDOM (OIF) was a joint and coalition warfighting effort from 
planning to execution. Air, ground, maritime, and space forces worked 
together at the same time for the same objectives, not merely staying 
out of each other's way, but orchestrated to achieve wartime 
objectives. Our air and space forces achieved dominance throughout the 
entire theater, enabling maritime and ground forces to operate without 
fear of enemy air attack. Our airmen demonstrated the flexibility, 
speed, precision, and compelling effects of air and space power, 
successfully engaging the full range of enemy targets, from the 
regime's leadership to fielded forces. When our ground and maritime 
components engaged the enemy, they were confident our airmen would be 
there--either in advance of their attacks, or in support of their 
operations. And America's Air Force was there, disciplined, dominant, 
and decisive.
    These operational accomplishments illustrate the growing maturation 
of air and space power. Leveraging the expertise of our airmen, the 
technologies present in our 21st century force, and the strategies, 
concepts of operation, and organizations in use today, the U.S. Air 
Force continues to adapt to meet the demands of this new era, while 
pursuing the war on terrorism and defending the homeland.
    On September 11, 2001, the dangers of the 21st century became 
apparent to the world. Today, the United States faces an array of 
asymmetric threats from terrorists and rogue states, including a threat 
that poses the gravest danger to our nation, the growing nexus of 
radicalism and technology. As we continue our work in Afghanistan and 
Iraq, we stand ready to respond to flashpoints around the world, 
prepared to counter the proliferation of weapons of mass destruction to 
unfriendly states and non-state entities.
    We are adapting to new and enduring challenges. As we do, we are 
exploiting the inherent sources of strength that give us the advantages 
we enjoy today. It is a strategy predicated on the idea that, if we 
accurately assess our own advantages and strengths, we can invest in 
them to yield high rates of military return. This approach helps us 
create a portfolio of advantages allowing us to produce and continue to 
exploit our capabilities. Our goal is to create a capability mix 
consistent with operational concepts and effects-driven methodology, 
relevant to the joint character and increasingly asymmetric conduct of 
warfare.
    Since 1945, when General Henry ``Hap'' Arnold and Dr. Theodore von 
Karman published Toward New Horizons, the Air Force has evolved to meet 
the changing needs of the nation--with the sole objective of improving 
our ability to generate overwhelming and strategically compelling 
effects from air and now, space. It is our heritage to adapt and we 
will continue to do so. During this comparatively short history, we 
became the best air and space force in the world through our focus on 
the development of professional airmen, our investment in warfighting 
technology, and our ability to integrate people and systems to produce 
decisive joint warfighting effects.
    The Air Force is making a conscious investment in education, 
training, and leader development to foster critical thinking, 
innovation, and encourage risk taking. We deliberately prepare our 
airmen--officer, enlisted, and civilian--with experience, assignments, 
and broadening that will allow them to succeed. When our airmen act in 
the combined or joint arena, whether as an Air Liaison Officer to a 
ground maneuver element, or as the space advisor to the Joint Force 
Commander (JFC), this focused professional development will guide their 
success.
    We are also investing in technologies that will enable us to create 
a fully integrated force of intelligence capabilities, manned, unmanned 
and space assets that communicate at the machine-to-machine level, and 
real-time global command and control (C\2\) of joint, allied, and 
coalition forces. Collectively, these assets will enable compression of 
the targeting cycle and near-instantaneous global precision-strike.
    As we cultivate new concepts of global engagement, we will move 
from analog to digital processes and adopt more agile, non-linear ways 
of integrating to achieve mission success. This change in thinking 
leads to capabilities including: networked communications; multi-
mission platforms which fuse multi-spectral sensors; integrated global 
intelligence, surveillance, and reconnaissance (ISR); robust, all-
weather weapons delivery with increased standoff; small smart weapons; 
remotely-piloted and unattended aircraft systems; advanced air 
operations centers; more secure position, navigation, and timing; and a 
new generation of satellites with more operationally responsive launch 
systems.
    Investment in our core competencies is the foundation of our 
preparation for future threats. They ensure we have the tools we need 
to maintain strategic deterrence as well as a sustained advantage over 
our potential adversaries. Ultimately, they ensure we can deliver the 
dominant warfighting capability our nation needs.
    Potential adversaries, however, continue to pursue capabilities 
that threaten the dominance we enjoy today. Double-digit surface-to-air 
missile systems (SAMs) are proliferating. China has purchased 
significant numbers of these advanced SAMs, and there is a risk of 
wider future proliferation to potential threat nations. Fifth-
generation advanced aircraft with capabilities superior to our present 
fleet of frontline fighter/attack aircraft are in production. China has 
also purchased, and is developing, advanced fighter aircraft that are 
broadly comparable to the best of our current frontline fighters. 
Advanced cruise missile technology is expanding, and information 
technology is spreading. Access to satellite communications, imagery, 
and use of the Global Positioning System (GPS) signal for navigation 
are now available for anyone willing to purchase the necessary 
equipment or services. With this relentless technological progress and 
the potential parity of foreign nations, as well as their potential 
application in future threats, the mere maintenance of our aging 
aircraft and space systems will not suffice. Simply stated, our current 
fleet of legacy systems cannot always ensure air and space dominance in 
future engagements.
    To counter these trends, we are pursuing a range of strategies that 
will guide our modernization and recapitalization efforts. We are using 
a capabilities-based planning and budgeting process, an integrated and 
systematic risk assessment system, a commitment to shorter acquisition 
cycle times, and improved program oversight. Our goal is to integrate 
our combat, information warfare, and support systems to create a 
portfolio of air and space advantages for the joint warfighter and the 
nation. Thus, we continue to advocate for program stability in our 
modernization and investment accounts.
    The principal mechanisms that facilitate this process are our Air 
Force Concepts of Operation (CONOPS). Through the CONOPS, we analyze 
problems we'll be asked to solve for the JFCs, identify the 
capabilities our expeditionary forces need to accomplish their 
missions, and define the operational effects we expect to produce. 
Through this approach, we can make smarter decisions about future 
investment, articulate the link between systems and employment 
concepts, and identify our capability gaps and risks.
    The priorities that emerge from the CONOPS will guide a reformed 
acquisition process that includes more active, continuous, and creative 
partnerships among the requirement, development, operational test, and 
industry communities who work side-by-side at the program level. In our 
science and technology planning, we are also working to demonstrate and 
integrate promising technologies quickly by providing an operational 
``pull'' that conveys a clear vision of the capabilities we need for 
the future.
    We are applying this approach to our space systems as well. As the 
DOD's Executive Agent for Space, we are producing innovative solutions 
for the most challenging national security problems. We have defined a 
series of priorities essential to delivering space-based capabilities 
to the joint warfighter and the Intelligence Community. Achieving 
mission success--in operations and acquisition--is our principal 
priority. This requires us to concentrate on designing and building 
quality into our systems. To achieve these exacting standards, we will 
concentrate on the technical aspects of our space programs early on--
relying on strong systems engineering design, discipline, and robust 
test programs. We also have many areas that require a sustained 
investment. We need to replace aging satellites, improve outmoded 
ground control stations, achieve space control capabilities to ensure 
freedom of action, sustain operationally responsive assured access to 
space, address bandwidth limitations, and focus space science and 
technology investment programs. This effort will require reinvigorating 
the space industrial base and funding smaller technology incubators to 
generate creative ``over the horizon'' ideas.
    As we address the problem of aging systems through renewed 
investment, we will continue to find innovative means to keep current 
systems operationally effective. In OIF, the spirit of innovation 
flourished. We achieved a number of air and space power firsts: 
employment of the B-1 bomber's synthetic aperture radar and ground 
moving target indicator for ISR; incorporation of the Litening II 
targeting pod on the F-15, F-16, A-10, and the B-52; and use of a 
Global Hawk for strike coordination and reconnaissance while flown as a 
remotely piloted aircraft. With these integrated air and space 
capabilities, we were able to precisely find, fix, track, target, and 
rapidly engage our adversaries. These examples illustrate how we are 
approaching adaptation in the U.S. Air Force.
    Ultimately, the success of our Air Force in accomplishing our 
mission and adapting to the exigencies of combat stems from the more 
than 700,000 active, guard, reserve, and civilian professionals who 
proudly call themselves ``airmen.'' In the past five years, they have 
displayed their competence and bravery in three major conflicts: the 
Balkans, Afghanistan, and Iraq. They are a formidable warfighting 
force, imbued with an expeditionary culture, and ready for the 
challenges of a dangerous world.
    Poised to defend America's interests, we continue to satisfy an 
unprecedented demand for air and space warfighting capabilities--
projecting American power globally while providing effective homeland 
defense. This is the U.S. Air Force in 2004--we foster ingenuity in the 
world's most professional airmen, thrive on transitioning new 
technologies into joint warfighting systems, and drive relentlessly 
toward integration to realize the potential of our air and space 
capabilities. We are America's Airmen--confident in our capability to 
provide our nation with dominance in air and space.
              air and space dominance in a new environment
    The U.S. Air Force ensures a flexible, responsive, and dominant 
force by providing a spectrum of operational capabilities that 
integrate with joint and coalition forces. To sustain and improve upon 
the dominance we enjoy today, the Air Force will remain engaged with 
the other services, our coalition partners, interagency teams, and the 
aerospace industry. As we do, we will incorporate the lessons learned 
from rigorous evaluation of past operations, detailed analyses of 
ongoing combat operations, and thoughtful prediction of the 
capabilities required of a future force.
    The pace of operations over the past year enabled us to validate 
the function and structure of our Air and Space Expeditionary Forces 
(AEFs). Operations in 2003 demanded more capability from our AEFs than 
at any time since their inception in 1998. However, for the first time 
we relied exclusively on our AEFs to present the full range of our 
capabilities to the Combatant Commanders. Through our 10 AEFs, our AEF 
prime capabilities (space, national ISR, long range strike, nuclear, 
and other assets), and our AEF mobility assets, we demonstrated our 
ability to package forces, selecting the most appropriate combat ready 
forces from our Total Force, built and presented expeditionary units, 
and flowed them to the theaters of operation in a timely and logical 
sequence. We rapidly delivered them to the warfighters, while 
preserving a highly capable residual force to satisfy our global 
commitments.
    More than three-fourths of our 359,300 active duty airmen are 
eligible to deploy and are assigned to an AEF. Through much of the past 
year, Total Force capabilities from 8 of the 10 AEFs were engaged 
simultaneously in worldwide operations. The remaining elements were 
returning from operations, training, or preparing to relieve those 
currently engaged. By the end of 2003, more than 26,000 airmen were 
deployed, supporting operations around the world.
    In 2004, we will continue to use the AEFs to meet our global 
requirements while concurrently reconstituting the force. Our number 
one reconstitution priority is returning our forces to a sustainable 
AEF battle rhythm while conducting combat operations. Attaining this 
goal is about revitalizing capabilities. For most airmen, that will 
include a renewed emphasis on joint composite force training and 
preparation for rotations in the AEF. Through the AEF, the Air Force 
presents right-sized, highly trained expeditionary units to JFCs for 
employment across the spectrum of conflict.
Global War on Terrorism
    The year 2003 marked another historic milestone for the United 
States and the Air Force in the Global War on Terrorism. Since 
September 11, 2001, air and space power has proven indispensable to 
securing American skies, defeating the Taliban, denying sanctuary to al 
Qaeda and other terrorist organizations, and most recently, removing a 
brutal and oppressive dictator in Iraq. This Global War on Terrorism 
imposes on airmen a new steady state of accelerated operations and 
personnel tempo (PERSTEMPO), as well as a demand for unprecedented 
speed, agility, and innovation in defeating unconventional and 
unexpected threats, all while bringing stability and freedom to 
Afghanistan and Iraq. The Air Force and its airmen will meet these 
demands.
Operation NOBLE EAGLE
    High above our nation, airmen protect our skies and cities through 
air defense operations known as Operation NOBLE EAGLE (ONE). The Total 
Force team, comprised of active duty, Air National Guard, and Air Force 
Reserve airmen, conducts airborne early warning, air refueling, and 
combat air patrol operations in order to protect sensitive sites, 
metropolitan areas, and critical infrastructure.
    This constant ``top cover'' demands significant Air Force assets, 
thus raising the baseline of requirements above the pre-September 11 
tempo. Since 2001, this baseline has meant over 34,000 fighter, tanker, 
and airborne early warning sorties were added to Air Force 
requirements.
    This year the Air Force scrambled nearly 1,000 aircraft, responding 
to 800 incidents. Eight active duty, eight Air Force Reserve, and 18 
Air National Guard units provided 1,300 tanker sorties offloading more 
than 32 million pounds of fuel for these missions. Last year, over 
2,400 airmen stood vigilant at air defense sector operations centers 
and other radar sites. Additionally, in 2003, we continued to 
institutionalize changes to our homeland defense mission through joint, 
combined, and interagency training and planning. Participating in the 
initial validation exercise DETERMINED PROMISE-03, the Air Force 
illustrated how its air defense, air mobility, and command and control 
capabilities work seamlessly with other agencies supporting NORTHCOM 
and Department of Homeland Security objectives. The integration and 
readiness that comes from careful planning and rigorous training will 
ensure the continued security of America's skies.
Operation ENDURING FREEDOM--Afghanistan
    Operation ENDURING FREEDOM--Afghanistan (OEF) is ongoing. Remnants 
of Taliban forces continue to attack United States, NATO, coalition 
troops, humanitarian aid workers, and others involved in the 
reconstruction of Afghanistan. To defeat this threat, aid coalition 
stability, and support operations, the Air Force has maintained a 
presence of nearly 24,000 airmen in and around the region. Having 
already flown more than 90,000 sorties (over 72 percent of all OEF 
missions flown), the Air Force team of active, Guard, and Reserve 
airmen continue to perform ISR, close air support (CAS), aerial 
refueling, and tactical and strategic airlift.
    While fully engaged in ONE and OIF, the men and women of the Air 
Force provided full spectrum air and space support, orchestrating 
assets from every service and ten different nations. Of these, Air 
Force strike aircraft flying from nine bases flew more than two-thirds 
of the combat missions, dropped more than 66,000 munitions (9,650 tons) 
and damaged or destroyed approximately three-quarters of planned 
targets. In 2003 alone, Air Force assets provided more than 3,000 
sorties of on-call CAS, responding to calls from joint and/or coalition 
forces on the ground.
    Last year, the Air Force brought personnel and materiel into this 
distant, land-locked nation via 7,410 sorties. Over 4,100 passengers 
and 487 tons of cargo were moved by airmen operating at various Tanker 
Airlift Control Elements in and around Afghanistan. To support these 
airlift and combat sorties and the numerous air assets of the coalition 
with aerial refueling, the Air Force deployed over 50 tankers. In their 
primary role, these late 1950s-era and early 1960s-era KC-135 tankers 
flew more than 3,900 refueling missions. In their secondary airlift 
role, they delivered 3,620 passengers and 405 tons of cargo. Without 
versatile tankers, our armed forces would need greater access to 
foreign bases, more aircraft to accomplish the same mission, more 
airlift assets, and generate more sorties to maintain the required 
duration on-station.
    Operations in Afghanistan also highlight U.S. and coalition 
reliance on U.S. space capabilities. This spanned accurate global 
weather, precise navigation, communications, as well as persistent 
worldwide missile warning and surveillance. For example, OEF relied on 
precision navigation provided by the Air Force's GPS constellation, 
over-the-horizon satellite communications (SATCOM), and timely 
observations of weather, geodesy, and enemy activity. To accomplish 
this, space professionals performed thousands of precise satellite 
contacts and hundreds of station keeping adjustments to provide 
transparent space capability to the warfighter. These vital space 
capabilities and joint enablers directly leveraged our ability to 
pursue U.S. objectives in OEF.
Operations NORTHERN WATCH and SOUTHERN WATCH
    During the past 12 years, the Air Force flew over 391,000 sorties 
enforcing the northern and southern no-fly zones over Iraq. With the 
preponderance of forces, the Air Force, along with the Navy and Marine 
Corps, worked alongside the Royal Air Force in Operations NORTHERN 
WATCH (ONW) and SOUTHERN WATCH (OSW). Manning radar outposts and 
established C\2\ centers, conducting ISR along Iraq's borders, 
responding to almost daily acts of Iraqi aggression, and maintaining 
the required airlift and air refueling missions taxed Air Force assets 
since the end of Operation DESERT STORM. Yet, these successful air 
operations had three main effects: they halted air attacks on the 
ethnic minority populations under the no-fly zones; they deterred a 
repeat of Iraqi aggression against its neighbors; and they leveraged 
enforcement of United Nations Security Council Resolutions. Throughout 
this period, our airmen honed their warfighting skills, gained 
familiarity with the region, and were able to establish favorable 
conditions for OIF. For more than a decade, American airmen rose to one 
of our nation's most important challenges, containing Saddam Hussein.
Operation IRAQI FREEDOM
    On March 19, 2003, our airmen, alongside fellow soldiers, sailors, 
marines and coalition teammates, were called upon to remove the 
dangerous and oppressive Iraqi regime--this date marked the end of ONW/
OSW and the beginning of OIF. OIF crystallized the meaning of jointness 
and the synergies of combined arms and persistent battlefield 
awareness.
    In the first minutes of OIF, airmen of our Combat Air Forces (USAF, 
USN, USMC, and coalition) were flying over Baghdad. As major land 
forces crossed the line of departure, Air Force assets pounded Iraqi 
command and control facilities and key leadership targets, decapitating 
the decision-makers from their fielded forces. Remaining Iraqi leaders 
operated with outdated information about ground forces that had already 
moved miles beyond their reach. As the land component raced toward 
Baghdad, coalition strike aircraft were simultaneously attacking Iraqi 
fielded forces, communications and command and control centers, 
surface-to-surface missile launch sites, and were supporting special 
operations forces, and ensuring complete air and space dominance in the 
skies over Iraq. Due to these actions and those during the previous 12 
years, none of the 19 Iraqi missile launches were successful in 
disrupting coalition operations, and not a single Iraqi combat sortie 
flew during this conflict. Twenty-one days after major combat 
operations began, the first U.S. land forces reached Baghdad. Five days 
later, the last major city in Iraq capitulated.
    The Air Force provided over 7,000 CAS sorties to aid land forces in 
the quickest ground force movement in history. Lieutenant General 
William S. Wallace, Commander of the U.S. Army V Corps said, ``none of 
my commanders complained about the availability, responsiveness, or 
effectiveness of CAS--it was unprecedented!'' As Iraqi forces attempted 
to stand against the integrated air and ground offensive, they found a 
joint and coalition team that was better equipped, better trained, and 
better led than ever brought to the field of battle.
    Training, leadership, and innovation coupled with the Air Force's 
recent investment in air mobility allowed U.S. forces to open a second 
major front in the Iraqi campaign. Constrained from access by land, Air 
Force C-17s airdropped over 1,000 paratroopers from the 173rd Airborne 
Brigade into northern Iraq. This successful mission opened Bashur 
airfield and ensured U.S. forces could be resupplied.
    Before 2003, the Air Force invested heavily in the lessons learned 
from OEF. Shortening the ``kill chain,'' or the time it took to find, 
fix, track, target, engage, and assess was one of our top priorities. 
This investment was worthwhile, as 156 time-sensitive targets were 
engaged within minutes, most with precision weapons. The flexibility of 
centralized control and decentralized execution of air and space power 
enabled direct support to JFC objectives throughout Iraq. Coalition and 
joint airpower shaped the battlefield ahead of ground forces, provided 
intelligence and security to the flanks and rear of the rapidly 
advancing coalition, and served as a force multiplier for Special 
Operations forces. This synergy between Special Operations and the Air 
Force allowed small specialized teams to have a major effect throughout 
the northern and western portions of Iraq by magnifying their inherent 
lethality, guaranteeing rapid tactical mobility, reducing their 
footprint through aerial resupply, and providing them the advantage of 
``knowing what was over the next hill'' through air and space-borne 
ISR.
    The Air Force's C\2\ISR assets enabled the joint force in 
Afghanistan as well. This invaluable fleet includes the RC-135 Rivet 
Joint, E-8 JSTARS, and the E-3 AWACS. This ``Iron Triad'' of 
intelligence sensors and C\2\ capabilities illustrates the Air Force 
vision of horizontal integration in terms of persistent battlefield 
awareness. Combined with the Global Hawk unmanned aerial vehicle and 
Predator remotely piloted aircraft, spaced-based systems, U-2, and 
Compass Call, these invaluable system provided all-weather, multi-
source intelligence to commanders from all services throughout the area 
of responsibility.
    OIF was the Predator's first ``networked'' operation. Four 
simultaneous Predator orbits were flown over Iraq and an additional 
orbit operated over Afghanistan, with three of those orbits controlled 
via remote operations in the United States. This combined reachback 
enabled dynamic support to numerous OIF missions. Predator also 
contributed to our operational flexibility, accomplishing hunter-killer 
missions, tactical ballistic missile search, force protection, focused 
intelligence collection, air strike control, and special operations 
support. A Hellfire equipped Predator also conducted numerous precision 
strikes against Iraqi targets, and flew armed escort missions with U.S. 
Army helicopters.
    Space power provided precise, all-weather navigation, global 
communications, missile warning, and surveillance. The ability to adapt 
to adverse weather conditions, including sandstorms, allowed air, land, 
and maritime forces to confound the Iraqi military and denied safe 
haven anywhere in their own country. As the Iraqis attempted to use 
ground-based GPS jammers, Air Force strike assets destroyed them, in 
some cases, using the very munitions the jammers attempted to defeat. 
As Defense Secretary Donald Rumsfeld noted, this new era was 
illustrated by the coalition's ``unprecedented combination of power, 
precision, speed, and flexibility.''
    During the height of OIF, the Air Force deployed 54,955 airmen. 
Ambassador Paul Bremer, Chief of the Coalition Provisional Authority, 
pronounced, ``In roughly three weeks [we] liberated a country larger 
than Germany and Italy combined, and [we] did so with forces smaller 
than the Army of the Potomac.'' Led by the finest officers and non-
commissioned officers, our airmen flew more than 79,000 sorties since 
March of 2003. Ten thousand strike sorties dropped 37,065 munitions. 
The coalition flew over 55,000 airlift sorties moved 469,093 passengers 
and more than 165,060 tons of cargo. In addition, over 10,000 aerial 
refueling missions supported aircraft from all services, and 1,600 ISR 
missions provided battlespace awareness regardless of uniform, service, 
or coalition nationality. This was a blistering campaign that demanded 
a joint and combined effort to maximize effects in the battlespace.
    Today, Air Force airmen continue to contribute to the joint and 
coalition team engaged in Iraq. At the end of the year, 6,723 airmen 
from the active duty, Reserve, and Air National Guard conducted a wide 
range of missions from locations overseas, flying approximately 150 
sorties per day including CAS for ground forces tracking down regime 
loyalists, foreign fighters, and terrorists. On a daily basis, U-2 and 
RC-135 aircraft flew ISR sorties monitoring the porous borders of Iraq 
and providing situational awareness and route planning for Army patrols 
in stability and support operations. Providing everything from base 
security for 27 new bases opened by the coalition to the lifeline of 
supplies that air mobility and air refueling assets bring to all joint 
forces, Air Force airmen are committed to the successful accomplishment 
of the U.S. mission in Iraq.
Other Contingency Operations
    In 2003, the Air Force remained engaged in America's war on drugs 
and provided support to NATO ground forces in the Balkans. Since 
December 1989, Air Force airmen have been an irreplaceable part of the 
interagency fight against illegal drug and narcotics trafficking. 
Deployed along the southern United States, in the Caribbean, and 
Central and South America, airmen perform this round-the-clock mission, 
manning nine ground-based radar sites, operating ten aerostats, and 
flying counter drug surveillance missions. The Air Force detected, 
monitored, and provided intercepts on over 275 targets attempting to 
infiltrate our airspace without clearance. Along with our interagency 
partners, these operations resulted in 221 arrests and stopped hundreds 
of tons of contraband from being smuggled into our country.
    In the Balkans, airmen are fully committed to completing the 
mission that they started in the 1990s. Today, Air Force airmen have 
flown over 26,000 sorties supporting Operations JOINT GUARDIAN and 
JOINT FORGE. These NATO-led operations combine joint and allied forces 
to implement the Dayton Peace Accords in Bosnia-Herzegovina and enforce 
the Military Technical Agreement in Kosovo. At the end of 2003, 
approximately 800 airmen were supporting NATO's goal of achieving a 
secure environment and promoting stability in the region.
    Additionally, the Air Force engaged in deterrence and humanitarian 
relief in other regions. While the world's attention was focused on the 
Middle East in the spring of 2003, our nation remained vigilant against 
potential adversaries in Asia. The Air Force deployed a bomber wing--24 
B-52s and B-1s--to the American territory of Guam to deter North Korea. 
At the height of OIF, our Air Force demonstrated our country's resolve 
and ability to defend the Republic of Korea and Japan by surging bomber 
operations to over 100 sorties in less than three days. This deterrent 
operation complemented our permanent engagement in Northeast Asia. The 
8,300 airmen who are stationed alongside the soldiers, sailors, 
Marines, and our Korean allies maintained the United Nations armistice, 
marking 50 years of peace on the peninsula.
    Our strength in deterring aggression was matched by our strength in 
humanitarian action. In response to President Bush's directive to help 
stop the worsening crisis in Liberia, we deployed a non-combat medical 
and logistics force to create a lifeline to the American Embassy and 
provide hope to the Liberian people. An Expeditionary Group of airmen 
provided airlift support, aeromedical evacuation, force protection, and 
theater of communications support. Flying more than 200 sorties, we 
transported and evacuated civilians and members of the Joint Task Force 
(JTF) from bases in Sierra Leone and Senegal. The 300 airmen deployed 
in support of JTF-Liberia reopened the main airport in Monrovia, and 
ensured the security for U.S. military and civilian aircraft providing 
relief aid.
Strategic Deterrence
    The ability of U.S. conventional forces to operate and project 
decisive force is built on the foundation of our strategic deterrent 
force; one that consists of our nuclear-capable aircraft and 
Intercontinental Ballistic Missile forces, working with the U.S. Navy's 
Fleet Ballistic Missile Submarines. In 2003, these forces as well as, 
persistent overhead missile warning sensors and supporting ground-based 
radars, provided uninterrupted global vigilance deterring a nuclear 
missile strike against the United States or our allies. The dedicated 
airmen who operate these systems provide the force capability that 
yields our deterrent umbrella. Should that deterrence fail, they stand 
ready to provide a prompt, scalable response.
Exercises
    The Air Force's success can be attributed to the training, 
education, and equipment of our airmen. Future readiness of our 
operations, maintenance, mission support, and medical units will depend 
on rigorous and innovative joint and coalition training and exercising. 
This year we are planning 140 exercises with other services and 
agencies and we anticipate being involved with 103 allied nations. We 
will conduct these exercises in as many as 45 foreign countries. 
Participation ranges from the Joint/Combined command post exercise 
ULCHI FOCUS LENS with our South Korean partners to the tailored 
international participation in our FLAG exercises and Mission 
Employment Phases of USAF Weapons School. From joint search-and-rescue 
forces in ARCTIC SAREX to Partnership for Peace initiatives, our airmen 
must continue to take advantage of all opportunities that help us train 
the way we intend to fight.
    In addition to previously designed exercises, recent operations 
highlighted the need for combat support training. During OEF and OIF, 
the Air Force opened or improved 38 bases used by joint or coalition 
forces during combat. Our Expeditionary Combat Support teams 
established secure, operable airfields in Kyrgyzstan, Uzbekistan, 
Pakistan, and in Iraq. They also built housing, established 
communications, and erected dining facilities that are still used by 
other services and follow-on forces today. To prepare our airmen for 
these missions, we have created EAGLE FLAG, an Expeditionary Combat 
Support Field Training Exercise. During this exercise, combat support 
personnel apply the integrated skills needed to organize and create an 
operating location ready to receive fully mission capable forces within 
72 hours. From security forces and civil engineers to air traffic 
controllers and logisticians, each airman required to open a new base 
or improve an austere location will eventually participate in this 
valuable exercise.
    Our ranges and air space are critical joint enablers and vital 
national assets that allow the Air Force to develop and test new 
weapons, train forces, and conduct joint exercises. The ability of the 
Air Force to effectively operate requires a finite set of natural and 
fabricated resources. Encroachment of surrounding communities onto Air 
Force resources results in our limited or denied access to, or use of, 
these resources. We have made it a priority to define and quantify the 
resources needed to support mission requirements, and to measure and 
communicate the effects of encroachment on our installations, radio 
frequency spectrum, ranges, and air space. We will continue to work 
with outside agencies and the public to address these issues. The Air 
Force strongly endorses the Readiness Range and Preservation 
Initiative. It would make focused legislative changes, protecting the 
Air Force's operational resources while continuing to preserve our 
nation's environment.
Lessons for the Future
    As we continue combat operations and prepare for an uncertain 
future, we are examining lessons from our recent experiences. Although 
we are currently engaged with each of the other services to refine the 
lessons from OIF, many of the priorities listed in the fiscal year 2005 
Presidential Budget submission reflect our preliminary conclusions. The 
Air Force has established a team committed to turning validated lessons 
into new equipment, new operating concepts, and possibly new 
organizational structures. Working closely with our joint and coalition 
partners, we intend to continue our momentum toward an even more 
effective fighting force.
    One of the most important lessons we can draw was envisioned by the 
authors of the Goldwater-Nichols Act. ONE, OEF, and OIF all validated 
jointness as the only acceptable method of fighting and winning this 
nation's wars. In OIF, the mature relationship between the Combined 
Forces Land Component Commander (CFLCC) and the Combined Forces Air 
Component Commander (CFACC) led to unprecedented synergies. The CFACC 
capitalized on these opportunities by establishing coordination 
entities led by an Air Force general officer in the supported land 
component headquarters and by maintaining internal Army, Navy, Marine 
Corps, and coalition officers in his own headquarters. Both of these 
organizational innovations enabled commanders to maximize the 
advantages of mass, lethality, and flexibility of airpower in the area 
of responsibility.
    Another lesson is the Air Force's dependence on the Total Force 
concept. As stated above, September 11 brought with it a new tempo of 
operations, one that required both the active duty and Air Reserve 
Component (ARC) to work in concert to achieve our national security 
objectives. The synergy of our fully integrated active duty, Air 
National Guard and Air Force Reserve team provides warfighters with 
capabilities that these components could not provide alone.
    Our reserve component accounts for over one-third of our strike 
fighters, more than 72 percent of our tactical airlift, 42 percent of 
our strategic airlift, and 52 percent of our air refueling capability. 
The ARC also makes significant contributions to our rescue and support 
missions, and has an increasing presence in space, intelligence, and 
information operations. In all, the ARC provides a ready force 
requiring minimum preparation for mobilization. Whether that 
mobilization is supporting flight or alert missions for ONE, commanding 
expeditionary wings in combat, or orchestrating the Air Force Special 
Operations roles in the western Iraqi desert, the ARC will remain 
critical to achieving the full potential of our air and space power.
    A third lesson was validation of the need for air and space 
superiority. Through recent combat operations, the Air Force maintained 
its almost 50 year-old record of ``no U.S. ground troops killed by 
enemy air attack.'' Without having to defend against Iraqi airpower, 
coalition commanders could focus their combat power more effectively. 
In addition, air and space superiority allowed airmen to dedicate more 
sorties in support of the ground scheme of maneuver, substantially 
reducing enemy capability in advance of the land component.
    We also need to continue to advance integration and planning--
integration of service capabilities to achieve JFC objectives, 
interagency integration to fight the war on terrorism, and information 
integration. Integration of manned, unmanned and space sensors, 
advanced command and control, and the ability to disseminate and act on 
this information in near-real time will drive our combat effectiveness 
in the future. Shared through interoperable machine-to-machine 
interfaces, this data can paint a picture of the battlespace where the 
sum of the wisdom of all sensors will end up with a cursor over the 
target for the operator who can save the target, study the target, or 
destroy the target.
    Finally, there are three general areas for improvement we consider 
imperative: battle damage assessment, fratricide prevention/combat 
identification, and equipping our battlefield airmen. First, battle 
damage assessment shapes the commander's ability for efficient 
employment of military power. Restriking targets that have already been 
destroyed, damaged, or made irrelevant by rapid ground force advances 
wastes sorties that could be devoted to other coalition and joint force 
objectives. Advances in delivery capabilities of our modern fighter/
attack aircraft and bombers mean that ISR assets must assess more 
targets per strike than ever before. Precision engagement requires 
precision location, identification, and precision assessment. Although 
assets like the Global Hawk, Predator, U-2, Senior Scout, and Rivet 
Joint are equipped with the latest collection technology, the Air 
Force, joint team, and Intelligence Community must work to ensure that 
combat assessments produce timely, accurate, and relevant products for 
the warfighters.
    We are also improving operational procedures and technology to 
minimize incidents of fratricide or ``friendly fire.'' In OIF, major 
steps toward this goal resulted from technological solutions. Blue 
Force Tracker and other combat identification systems on many ground 
force vehicles allowed commanders situational awareness of their forces 
and enemy forces via a common operational picture. Still, not all joint 
or coalition forces are equipped with these technological advances. We 
are pursuing Fire Support Coordination Measures that capitalize on the 
speed and situational awareness digital communications offer rather 
than analog voice communications and grease pencils.
    A third area we are actively improving is the effectiveness of the 
airmen who are embedded with conventional land or Special Forces. With 
assured access to Air Force datalinks and satellites, these 
``Battlefield Airmen'' can put data directly into air-land-sea weapon 
systems and enable joint force command and control. We have made great 
progress in producing a Battlefield Air Operations Kit that is 70 
percent lighter, with leading-edge power sources; one that will 
increase the combat capability of our controllers. This battle 
management system will reduce engagement times, increase lethality and 
accuracy, and reduce the risk of fratricide. This capability is based 
upon the good ideas of our airmen who have been in combat and 
understand how much a single individual on the battlefield can 
contribute with the right kit.
Summary
    The airmen of America's Air Force have demonstrated their expertise 
and the value of their contributions to the joint and coalition fight. 
These combat operations are made possible by Air Force investments in 
realistic training and education, superior organization, advanced 
technology, and innovative tactics, techniques, and procedures. In the 
future, our professional airmen will continue to focus advances in 
these and other areas guided by the Air Force CONOPS. Their charter is 
to determine the appropriate capabilities required for joint 
warfighting and to provide maximum effects from, through, and in air 
and space. This structure and associated capabilities-based planning 
will help airmen on their transformational journey, ensuring continued 
operational successes such as those demonstrated in 2003.
           ensuring america's future air and space dominance
    Air Force lethality, mobility, speed, precision, and the ability to 
project U.S. military power around the globe provide Combatant 
Commanders the capabilities required to meet the nation's military 
requirements and dominate our enemies. Consistent with the DOD's focus 
on Joint Operating Concepts, we will continue to transform our force--
meeting the challenges of this era, adapting our forces and people to 
them, and operating our service efficiently. We will adopt service 
concepts and capabilities that support the joint construct and 
capitalize on our core competencies. To sustain our dominance, we 
develop professional airmen, invest in warfighting technology, and 
integrate our people and systems together to produce decisive joint 
warfighting capabilities.
        developing airmen--right people, right place, right time
    At the heart of our combat capability are the professional airmen 
who voluntarily serve the Air Force and our nation. Our airmen turn 
ideas, tools, tactics, techniques, and procedures into global mobility, 
power projection, and battlespace effects. Our focus for the ongoing 
management and development of Air Force personnel will be to: define, 
renew, develop, and sustain the force.
Defining our Requirements
    To meet current and future requirements, we need the right people 
in the right specialties. The post-September 11 environment has taxed 
our equipment and our people, particularly those associated with force 
protection, ISR, and the buildup and sustainment of expeditionary 
operations. Our analysis shows that we need to shift manpower to 
stressed career fields to meet the demands of this new steady state, 
and we are in the process of doing this. We have realigned personnel 
into our most stressed specialties and hired additional civilians and 
contractors to free military members to focus on military specific 
duties. We have also made multi-million dollar investments in 
technology to reduce certain manpower requirements. We have redirected 
our training and accession systems and have cross-trained personnel 
from specialties where we are over strength to alleviate stressed 
career fields, supporting the Secretary of Defense's vision of moving 
forces ``from the bureaucracy to the battlefield.''
    Since 2001, we've exceeded our congressionally mandated end 
strength by more than 16,000 personnel. In light of the global war on 
terrorism and OIF, DOD allowed this overage, but now we need to get 
back to our mandated end strength. We are addressing this issue in two 
ways: first, by reducing personnel overages in most skills; and second, 
by shaping the remaining force to meet mission requirements. To reduce 
personnel, we will employ a number of voluntary tools to restructure 
manning levels in Air Force specialties, while adjusting our active 
force size to the end strength requirement. As we progress, we will 
evaluate the need to implement additional force shaping steps.
    We are also reviewing our ARC manpower to minimize involuntary 
mobilization of ARC forces for day-to-day, steady state operations 
while ensuring they are prepared to respond in times of crisis. Since 
September 11, 2001, we've mobilized more than 62,000 people in over 100 
units, and many more individual mobilization augmentees. Today, 20 
percent of our AEF packages are comprised of citizen airmen, and 
members of the Guard or Reserve conduct 89 percent of ONE missions. We 
recognize this is a challenge and are taking steps to relieve the 
pressure on the Guard and Reserve.
    In fiscal year 2005, we plan to redistribute forces in a number of 
mission areas among the Reserve and Active components to balance the 
burden on the Reserves. These missions include our Air and Space 
Operations Centers, remotely piloted aircraft systems, Combat Search 
and Rescue, Security Forces, and a number of high demand global 
mobility systems. We are working to increase ARC volunteerism by 
addressing equity of benefits and tour-length flexibility, while 
addressing civilian employer issues. We are also looking at creating 
more full-time positions to reduce our dependency on involuntary 
mobilization.
    We are entering the second year of our agreement to employ Army 
National Guard soldiers for Force Protection at Air Force 
installations, temporarily mitigating our 8,000 personnel shortfall in 
Security Forces. As we do this, we are executing an aggressive plan to 
rapidly burn down the need for Army augmentation and working to 
redesign manpower requirements. Our reduction plan maximizes the use of 
Army volunteers in the second year, and allows for demobilization of 
about one-third of the soldiers employed in the first year.
Future Total Force
    Just as in combat overseas, we are continuing to pursue seamless 
ARC and active duty integration at home, leveraging the capabilities 
and characteristics of each component, while allowing each to retain 
their cultural identity. We continue to explore a variety of 
organizational initiatives to integrate our active, Guard, and Reserve 
forces. These efforts are intended to expand mission flexibility, 
create efficiencies in our Total Force, and prepare for the future. 
Today's Future Total Force team includes a number of blended or 
associate units that are programmed or are in use. The creation of the 
``blended'' unit, the 116th Air Control Wing at Robins Air Force Base, 
Georgia, elevated integration to the next level. With an initial 
deployment of over 730 personnel, and significant operational 
achievements in OIF, we are now examining opportunities to integrate 
active, Guard, and Reserve units elsewhere in order to produce even 
more measurable benefits, savings, and efficiencies.
    The reasons for this type of integration are compelling. We can 
maximize our warfighting capabilities by integrating active, Guard, and 
Reserve forces to optimize the contributions of each component. 
Reservists and Guardsmen bring with them capabilities they have 
acquired in civilian jobs, leveraging the experience of ARC personnel. 
Integration relieves PERSTEMPO on the active duty force. Because ARC 
members do not move as often, they provide corporate knowledge, 
stability, and continuity. Finally, integration enhances the retention 
of airmen who decide to leave active service. Because the Guard and 
Reserve are involved in many Air Force missions, we recapture the 
investment we've made by retaining separating active duty members as 
members of the ARC.
Renewing the Force
    To renew our force, we target our recruitment to ensure a diverse 
force with the talent and drive to be the best airmen in the world's 
greatest Air Force. We will recruit those with the skills most critical 
for our continued success. In fiscal year 2003, our goal was 5,226 
officers and 37,000 enlisted; we exceeded our goal in both categories, 
accessing 5,419 officers and 37,144 enlisted. For fiscal year 2004, we 
plan to access 5,795 officers and 37,000 enlisted.
    In the Air Force, the capabilities we derive from diversity are 
vital to mission excellence and at the core of our strategy to maximize 
our combat capabilities. In this new era, successful military 
operations demand much greater agility, adaptability, and versatility 
to achieve and sustain success. This requires a force comprised of the 
best our nation has to offer, from every segment of society, trained 
and ready to go. Our focus is building a force that consists of men and 
women who possess keener international insight, foreign language 
proficiency, and wide-ranging cultural acumen. Diversity of life 
experiences, education, culture, and background are essential to help 
us achieve the asymmetric advantage we need to defend America's 
interests wherever threatened. Our strength comes from the collective 
application of our diverse talents, and is a critical component of the 
air and space dominance we enjoy today. We must enthusiastically reach 
out to all segments of society to ensure the Air Force offers a 
welcoming career to the best and brightest of American society, 
regardless of their background. By doing so, we attract people from all 
segments of society and tap into the limitless talents resident in our 
diverse population.
    In addition to a diverse force, we also need the correct talent 
mix. We remain concerned about recruiting health care professionals and 
individuals with technical degrees. To meet our needs, we continue to 
focus our efforts to ensure we attract and retain the right people. We 
will also closely monitor ARC recruitment. Historically, the Air 
National Guard and Air Force Reserve Command access close to 25 percent 
of eligible, separating active duty Air Force members with no break in 
service between their active duty and ARC service.
Developing the Force
    Over the past year, we implemented a new force development 
construct in order to get the right people in the right job at the 
right time with the right skills, knowledge, and experience. Force 
development combines focused assignments and education and training 
opportunities to prepare our people to meet the mission needs of our 
Air Force. Rather than allowing chance and happenstance to guide an 
airman's experience, we will take a deliberate approach to develop 
officers, enlisted, and civilians throughout our Total Force. Through 
targeted education, training, and mission-related experience, we will 
develop professional airmen into joint force warriors with the skills 
needed across the tactical, operational, and strategic levels of 
conflict. Their mission will be to accomplish the joint mission, 
motivate teams, mentor subordinates, and train their successors.
    A segment of warriors requiring special attention is our cadre of 
space professionals, those that design, build, and operate our space 
systems. As military dependence on space grows, the Air Force continues 
to develop this cadre to meet our nation's needs. Our Space 
Professional Strategy is the roadmap for developing that cadre. Air 
Force space professionals will develop more in-depth expertise in 
operational and technical space specialties through tailored 
assignments, education, and training. This roadmap will result in a 
team of scientists, engineers, program managers, and operators skilled 
and knowledgeable in developing, acquiring, applying, sustaining, and 
integrating space capabilities.
Sustaining the Force
    The Air Force is a retention-based force. Because the skill sets of 
our airmen are not easily replaced, we expend considerable effort to 
retain our people, especially those in high-technology fields and those 
in whom we have invested significant education and training. In 2003, 
we reaped the benefits of an aggressive retention program, aided by a 
renewed focus and investment on education and individual development, 
enlistment and retention bonuses, targeted military pay raises, and 
quality of life improvements. Our fiscal year 2003 enlisted retention 
statistics tell the story. Retention for first term airmen stood at 61 
percent, exceeding our goal by 6 percent. Retention for our second term 
and career airmen was also impressive, achieving 73 percent and 95 
percent respectively. Continued investment in people rewards their 
service, provides a suitable standard of living, and enables us to 
attract and retain the professionals we need.
    One of the highlights of our quality of life focus is housing 
investment. Through military construction and housing privatization, we 
are providing quality homes faster than ever before. Over the next 
three years, the Air Force will renovate or replace more than 40,000 
homes through privatization. At the same time, we will renovate or 
replace an additional 20,000 homes through military construction. With 
the elimination of out-of-pocket housing expenses, our Air Force 
members and their families now have three great options--local 
community housing, traditional military family housing, and privatized 
housing.
Focus On Fitness
    We recognize that without motivated and combat-ready expeditionary 
airmen throughout our Total Force, our strategies, advanced 
technologies, and integrated capabilities would be much less effective. 
That is why we have renewed our focus on fitness and first-class 
fitness centers. We must be fit to fight. And that demands that we 
reorient our culture to make physical and mental fitness part of our 
daily life as airmen. In January 2004, our new fitness program returned 
to the basics of running, sit-ups, and pushups. The program combines 
our fitness guidelines and weight/body fat standards into one program 
that encompasses the total health of an airman.
                       technology to warfighting
    The Air Force has established a capabilities-based approach to war 
planning, allowing us to focus investments on those capabilities we 
need to support the joint warfighter. This type of planning focuses on 
capabilities required to accomplish a variety of missions and to 
achieve desired effects against any potential threats. Our 
capabilities-based approach requires us to think in new ways and 
consider combinations of systems that create distinctive capabilities.
Effects Focus: Capabilities-Based CONOPS
    The Air Force has written six CONOPS that support capabilities-
based planning and the joint vision of combat operations. The CONOPS 
help analyze the span of joint tasks we may be asked to perform and 
define the effects we can produce. Most important, they help us 
identify the capabilities an expeditionary force will need to 
accomplish its mission, creating a framework that enables us to shape 
our portfolio.
  --Homeland Security CONOPS leverages Air Force capabilities with 
        joint and interagency efforts to prevent, protect, and respond 
        to threats against our homeland--within or beyond U.S. 
        territories.
  --Space and Command, Control, Communications, Computers, 
        Intelligence, Surveillance, and Reconnaissance CONOPS (Space 
        and C\4\ISR) harnesses the integration of manned, unmanned, and 
        space systems to provide persistent situation awareness and 
        executable decision-quality information to the JFC.
  --Global Mobility CONOPS provides Combatant Commanders with the 
        planning, command and control, and operations capabilities to 
        enable timely and effective projection, employment, and 
        sustainment of U.S. power in support of U.S. global interests--
        precision delivery for operational effect.
  --Global Strike CONOPS employs joint power-projection capabilities to 
        engage anti-access and high-value targets, gain access to 
        denied battlespace, and maintain battlespace access for 
        required joint/coalition follow-on operations.
  --Global Persistent Attack CONOPS provides a spectrum of capabilities 
        from major combat to peacekeeping and sustainment operations. 
        Global Persistent Attack assumes that once access conditions 
        are established (i.e. through Global Strike), there will be a 
        need for persistent and sustained operations to maintain air, 
        space, and information dominance.
  --Nuclear Response CONOPS provides the deterrent ``umbrella'' under 
        which conventional forces operate, and, if deterrence fails, 
        avails a scalable response.
    This CONOPS approach has resulted in numerous benefits, providing:
  --Articulation of operational capabilities that will prevail in 
        conflicts and avert technological surprises;
  --An operational risk and capabilities-based programmatic decision-
        making focus;
  --Budgeting guidance to the Air Force Major Commands for fulfilling 
        capabilities-based solutions to satisfy warfighter 
        requirements;
  --Warfighter risk management insights for long-range planning.
Modernization and Recapitalization
    Through capabilities-based planning, the Air Force will continue to 
invest in our core competency of bringing technology to the warfighter 
that will maintain our technical advantage and update our air and space 
capabilities. The Capabilities Review and Risk Assessment (CRRA) 
process guides these efforts. Replacing an outdated threat-based review 
process that focused on platforms versus current and future warfighting 
effects and capabilities, our extensive two-year assessment identified 
and prioritized critical operational shortfalls we will use to guide 
our investment strategy. These priorities present the most significant 
and immediate Air Force-wide capability objectives.
    We need to field capabilities that allow us to reduce the time 
required to find, fix, track and target fleeting and mobile targets and 
other hostile forces. One system that addresses this operational 
shortfall is the F/A-22 Raptor. In addition to its contributions to 
obtaining and sustaining air dominance, the F/A-22 will allow all 
weather, stealthy, precision strike 24 hours a day, and will counter 
existing and emerging threats, such as advanced surface-to-air 
missiles, cruise missiles, and time sensitive and emerging targets, 
including mobile targets, that our legacy systems cannot. The F/A-22 is 
in low rate initial production and has begun Phase I of its operational 
testing. It is on track for initial operational capability in 2005. A 
complementary capability is provided by the F-35 Joint Strike Fighter, 
providing sustainable, focused CAS and interservice and coalition 
commonality.
    We also recognize that operational shortfalls exist early in the 
kill chain and are applying technologies to fill those gaps. A robust 
command, control, and sensor portfolio combining both space and 
airborne systems, along with seamless real-time communications, will 
provide additional critical capabilities that address this shortfall 
while supporting the Joint Operational Concept of full spectrum 
dominance. Program definition and risk reduction efforts are moving us 
towards C\4\ISR and Battle Management capabilities with shorter cycle 
times. The JFC will be able to respond to fleeting opportunities with 
near-real time information and will be able to bring to bear kill-chain 
assets against the enemy. Additionally, in this world of proliferating 
cruise missile technology, our work on improving our C\4\ISR 
capabilities--including airborne Active Electronically Scanned Array or 
AESA radar technology--could pay large dividends, playing a significant 
role in America's defense against these and other threats. To create 
this robust command and control network, we will need a flexible and 
digital multi-service communications capability. We are well on our way 
in defining the architecture to make it a reality. The capabilities we 
are pursuing directly support the Department's transformational system 
of interoperable joint C\4\ISR.
    There is a need for a globally interconnected capability that 
collects, processes, stores, disseminates, and manages information on 
demand to warfighters, policy makers, and support people. The C\2\ 
Constellation, our capstone concept for achieving the integration of 
air and space operations, includes these concepts and the future 
capabilities of the Global Information Grid, Net Centric Enterprise 
Services, Transformational Communications, the Joint Tactical Radio 
System, and airborne Command, Control, and Communication assets, among 
others.
    One of the elements of a sensible strategy to maintain U.S. power 
projection capabilities derives from a global aerial refueling fleet 
that serves Air Force, Navy, Marine Corps and coalition aircraft. Our 
current fleet of aging tankers met the challenges of OEF and OIF but is 
increasingly expensive to maintain. The fleet averages more then 40 
years of age, and the oldest model, the KC-135E, goes back to the 
Eisenhower Administration. Recapitalization for this fleet of over 540 
aerial refueling aircraft will clearly take decades to complete and is 
vital to the foundation and global reach of our Air Force, sister 
services, and coalition partners. The Air Force is committed to an 
acquisition approach for this program that will recapitalize the fleet 
in the most affordable manner possible.
    Capabilities-driven modernization and recapitalization efforts are 
also taking place on our space systems, as we replace constellations of 
satellites and ground systems with next generation capabilities. The 
Evolved Expendable Launch Vehicle has completed six successful 
launches. Using two launch designs, we will continue to seek 
responsive, assured access to space for government systems. Space-Based 
Radar will provide a complementary capability to our portfolio of radar 
and remote sensing systems. We will employ internet protocol networks 
and high-bandwidth lasers in space to transform communications with the 
Transformational Satellite, dramatically increasing connectivity to the 
warfighter. Modernization of GPS and development of the next-generation 
GPS III will enhance navigation capability and increase our resistance 
to jamming. In partnership with NASA and the Department of Commerce, we 
are developing the National Polar-orbiting Operational Environmental 
Satellite System, which offers next-generation meteorological 
capability. Each of these systems supports critical C\4\ISR 
capabilities that give the JFC increased technological and asymmetric 
advantages.
    Space control efforts, enabled by robust space situation awareness, 
will ensure unhampered access to space-based services. Enhanced space 
situation awareness assets will provide the information necessary to 
execute an effective space control strategy. However, we must be 
prepared to deprive an adversary of the benefits of space capabilities 
when American interests and lives are at stake.
    Additional capability does not stem solely from new weapon system 
acquisitions. It results from innovative modernization of our existing 
systems. One example is incorporating a Smart Bomb Rack Assembly and 
the 500 lb. version of the Joint Direct Attack Munition into the 
weapons bay of the B-2. In September of 2003, we demonstrated that the 
B-2 bomber is now able to release up to 80 separately targeted, GPS-
guided weapons in a single mission. This kind of innovation reduces the 
number of platforms that must penetrate enemy airspace while holding 
numerous enemy targets at risk. The second order consequences run the 
gamut from maintenance to support aircraft.
    We will also address the deficiencies in our infrastructure through 
modernization and recapitalization. Improvements to our air and space 
systems will be limited without improvements in our foundational 
support systems. Deteriorated airfields, hangars, waterlines, 
electrical networks, and air traffic control approach and landing 
systems are just some of the infrastructure elements needing immediate 
attention. Our investment strategy focuses on three simultaneous steps: 
disposing of excess facilities; sustaining our facilities and 
infrastructure; and establishing a sustainable investment program for 
future modernization of our facilities and infrastructure.
    Finally, we need to continue to modernize and recapitalize our 
information technology infrastructure. To leverage our information 
superiority, the Air Force is pursuing a modernization strategy and 
information technology investments, which target a common network 
infrastructure and employ enterprise services and shared capabilities.
Science and Technology (S&T)
    Our investment in science and technology has and continues to 
underpin our modernization and recapitalization program. Similar to our 
applied-technology acquisition efforts, the Air Force's capability-
based focus produces an S&T vision that supports the warfighter.
    The Air Force S&T program fosters development of joint warfighting 
capabilities and integrated technologies, consistent with DOD and 
national priorities. We will provide a long-term, stable investment in 
S&T in areas that will immediately benefit existing systems and in 
transformational technologies that will improve tomorrow's Air Force. 
Many Air Force S&T programs, such as directed energy, hypersonics, 
laser-based communications, and the emerging field of nanotechnology, 
show promise for joint warfighting capabilities. Other technology 
areas, such as miniaturization of space platforms and space proximity 
operations, also show promise in the future. Through developments like 
these, the Air Force S&T program will advance joint warfighting 
capabilities and the Air Force vision of an integrated air and space 
force capable of responsive and decisive global engagement.
Capabilities-Based Acquisition/Transforming Business Practices
    To achieve our vision of a flexible, responsive, and capabilities-
based expeditionary force, we are transforming how we conceive, plan, 
develop, acquire, and sustain weapons systems. Our Agile Acquisition 
initiative emphasizes speed and credibility; we must deliver what we 
promise--on time and on budget. Our goal is to deliver affordable, 
sustainable capabilities that meet joint warfighters' operational 
needs.
    We continue to improve our acquisition system--breaking down 
organizational barriers, changing work culture through aggressive 
training, and reforming processes with policies that encourage 
innovation and collaboration.
    Already, we are:
  --Realigning our Program Executive Officers (PEOs).--By moving our 
        PEOs out of Washington and making them commanders of our 
        product centers, we have aligned both acquisition 
        accountability and resources under our most experienced general 
        officers and acquisition professionals.
  --Creating a culture of innovation.--Because people drive the success 
        of our Agile Acquisition initiatives, we will focus on enhanced 
        training. Laying the foundation for change, this past year 
        16,500 Air Force acquisition professionals, and hundreds of 
        personnel from other disciplines, attended training sessions 
        underscoring the need for collaboration, innovation, reasonable 
        risk management, and a sense of urgency in our approach.
  --Reducing Total Ownership Costs.--With strong support from the 
        Secretary of Defense, we will expand the Reduction in Total 
        Ownership Cost program with a standard model ensuring that we 
        have accurate metrics.
  --Moving technology from the lab to the warfighter quickly.--
        Laboratories must focus on warfighter requirements and 
        researchers need to ensure technologies are mature, producible, 
        and supportable. Warfighters will work with scientists, 
        acquisition experts, and major commands to identify gaps in 
        capabilities. With help from Congress, we have matured our 
        combat capability document process to fill those gaps. During 
        OIF, we approved 37 requests for critically needed systems, 
        usually in a matter of days.
  --Tailoring acquisition methods for space systems.--In October 2003, 
        we issued a new acquisition policy for space systems that will 
        improve acquisitions by tailoring acquisition procedures to the 
        unique demands of space systems.
    Transformation of our business processes is not limited to 
acquisition activities. Our Depot Maintenance Strategy and Master Plan 
calls for financial and infrastructure capitalization to ensure Air 
Force hardware is safe and ready to operate across the threat spectrum. 
Our increased funding for depot facilities and equipment modernization 
in fiscal year 2004-09, along with public-private partnerships, will 
result in more responsive support to the JFC. We expect to maximize 
production and throughput of weapon systems and commodities that will 
improve mission capability.
    Our logistics transformation initiative will revolutionize 
logistics processes to improve warfighter support and reduce costs. The 
goal of the Air Force's logistics transformation program, Expeditionary 
Logistics for the 21st Century, is to increase weapon system 
availability by 20 percent with zero cost growth. Our current 
initiatives--depot maintenance transformation, purchasing and supply 
chain management, regionalized intermediate repair, and improved 
logistics command and control--will transform the entire logistics 
enterprise.
    Our depots have put some of these initiatives into place with 
exceptional results. In fiscal year 2003, our depot maintenance teams 
were more productive than planned, exceeding aircraft, engine, and 
commodity production goals and reducing flow days in nearly all areas. 
Implementation of ``lean'' production processes, optimized use of the 
existing workforce, and appropriate funding, all contributed to this 
good news story. In addition, our spares support to the warfighter is 
at record high numbers. In 2003, supply rates and cannibalization rates 
achieved their best performance since fiscal year 1994 and fiscal year 
1995, respectively. Fourteen of twenty aircraft design systems improved 
their mission capable rates over the previous year, with Predator 
unmanned aerial vehicles improving by 11 percent, and B-1 bombers 
achieving the best mission capable and supply rates in its history. 
Thanks to proper funding, fleet consolidation, and transformation 
initiatives, spare parts shortages were reduced to the lowest levels 
recorded across the entire fleet.
Financing the Fight
    An operating strategy is only as good as its financing strategy. 
And similar to acquisition, logistics, and other support processes, our 
finance capabilities are strong. We are taking deliberate and 
aggressive steps to upgrade our financial decision support capability 
and reduce the cost of delivering financial services. Our focus is on 
support to our airmen, strategic resourcing and cost management, and 
information reliability and integration. The initiatives that will get 
us there include self-service web-based pay and personnel customer 
service, seamless e-commerce for our vendor payment environment, 
budgets that link planning, programming, and execution to capabilities 
and performance, financial statements that produce clean audit opinions 
while providing reliable financial and management information, and 
innovative financing strategies.
                         integrating operations
    The Air Force excels at providing communications, intelligence, air 
mobility, precision strike, and space capabilities that enable joint 
operations. Our airmen integrate these and other capabilities into a 
cohesive system that creates war-winning effects. Integration takes 
place at three levels. At the joint strategic level, integration occurs 
between interagencies and the coalition. Integration also takes place 
within the Air Force at an organizational level. At its most basic 
level, integration takes place at the machine-to-machine level to 
achieve universal information sharing which facilitates true 
integration at every level.
Integrating Joint, Coalition, and Interagency Operations
    The ever-changing dynamics of global events will drive the need to 
integrate DOD and interagency capabilities and, in most cases, those of 
our coalition partners. Joint solutions are required to produce 
warfighting effects with the speed that the Global War on Terrorism 
demands. Fully integrated operations employ only the right forces and 
capabilities necessary to achieve an objective in the most efficient 
manner. We must also integrate space capabilities for national 
intelligence and warfighting.
    We are pursuing adaptations of our C\2\ organizations and 
capabilities to support this vision. While the Air Force's global C\2\ 
structure has remained relatively constant, throughout our 57-year 
history, the demands of a changing geopolitical environment have 
stressed current C\2\ elements beyond their design limits.
    We have conducted an extensive review of our C\2\ structures to 
support the National Security Strategy objectives of assure, dissuade, 
deter, and defeat as well as the SECDEF's Unified Command Plan. We will 
enhance our support for the JFC and our expeditionary posture through a 
new Warfighting Headquarters Construct. This will enable the Numbered 
Air Forces to support Unified Combatant Commanders in a habitual 
supported-supporting relationship. Working with their strategy and 
planning cells on a daily basis will ensure that Air Force capabilities 
are available to the JFC's warfighting staff. This new headquarters 
will provide the Combined Air Operations Center (CAOC) with sufficient 
staff to focus on planning and employment of air, space, and 
information operations throughout the theater.
    We are also adapting the capabilities of our CAOCs. The CAOCs of 
each headquarters will be interconnected with the theater CAOCs, all 
operating 24 hours a day, seven days a week. They will be operated as a 
weapons system, certified and standardized, and have cognizance of the 
entire air and space picture. This reorganization will increase our 
ability to support our Combatant Commanders, reduce redundancies, and 
deliver precise effects to the warfighters. As we near completion of 
the concept development, we will work with the Secretary of Defense and 
the Congress to implement a more streamlined and responsive C\2\ 
component for the Combatant Commanders and national leadership.
    Integrated operations also depend on integrated training. We 
continue to advance joint and combined interoperability training with 
our sister services and the nations with which we participate in global 
operations. The Joint National Training Capability (JNTC) will improve 
our opportunities for joint training. The aim of the JNTC is to improve 
each service's ability to work with other services at the tactical 
level and to improve joint planning and execution at the operational 
and strategic levels. The Air Force has integrated live, virtual, and 
constructive training environments into a single training realm using a 
distributed mission operations (DMO) capability. JNTC will use this DMO 
capability to tie live training events with virtual (man-in-the-loop) 
play and constructive simulations. Live training in 2004--on our ranges 
during four Service-conducted major training events--will benefit from 
improved instrumentation and links to other ranges as well as the 
ability to supplement live training with virtual or constructive 
options. These types of integrated training operations reduce overall 
costs to the services while providing us yet another avenue to train 
like we fight.
Integrating Within the Air Force
    The Air Force is continuing to strengthen and refine our AEF. The 
AEF enables rapid build-up and redeployment of air and space power 
without a lapse in the Air Force's ability to support a Combatant 
Commander's operations. The Air Force provides forces to Combatant 
Commanders according the AEF Presence Policy (AEFPP), the Air Force 
portion of DOD's Joint Presence Policy. There are ten AEFs, and each 
AEF provides a portfolio of capabilities and force modules. At any 
given time, two AEFs are postured to immediately provide these 
capabilities. The other eight are in various stages of rest, training, 
spin-up, or standby. The AEF is how the Air Force organizes, trains, 
equips, and sustains responsive air and space forces to meet defense 
strategy requirements outlined in the Strategic Planning Guidance.
    Within the AEF, Air Force forces are organized and presented to 
Combatant Commanders as Air and Space Expeditionary Task Forces 
(AETFs). They are sized to meet the Combatant Commander's requirements 
and may be provided in one of three forms: as an Air Expeditionary Wing 
(AEW), Group (AEG), and/or Squadron (AES). An AETF may consist of a 
single AEW or AEG, or may consist of multiple AEWs or AEGs and/or as a 
Numbered Expeditionary Air Force. AETFs provide the functional 
capabilities (weapon systems, expeditionary combat support and command 
and control) to achieve desired effects in an integrated joint 
operational environment.
    One of our distinctive Air Force capabilities is Agile Combat 
Support (ACS.) To provide this capability, our expeditionary combat 
support forces--medics, logisticians, engineers, communicators, 
Security Forces, Services, and Contracting, among several others--
provide a base support system that is highly mobile, flexible, and 
fully integrated with air and space operations. ACS ensures responsive 
expeditionary support to joint operations is achievable within resource 
constraints--from creation of operating locations to provision of 
right-sized forces. An example of this capability is the 86th 
Contingency Response Group (CRG) at Ramstein Air Base, organized, 
trained, and equipped to provide an initial ``Open the Base'' force 
module to meet Combatant Commander requirements. The CRG provides a 
rapid response team to assess operating location suitability and 
defines combat support capabilities needed to establish air 
expeditionary force operating locations.
    Another example of ACS capability is the light and lean 
Expeditionary Medical System (EMEDS) that provides the U.S. military's 
farthest forward care and surgical capability. Air Force medics jump 
into the fight alongside the very first combatants. Whether supporting 
the opening of an air base or performing life saving surgeries, these 
medics bring an extraordinary capability. They carry backpacks with 
reinforced medical equipment, permitting them to perform medical 
operations within minutes of their boots hitting the ground. 
Complementing this expeditionary medical capability is our air 
evacuation system that provides the lifeline for those injured 
personnel not able to return to duty. The other services and our allies 
benefited greatly from this capability in OEF and OIF. The Army and 
Navy are now developing a similar light and lean capability. The 
success of EMEDS is also apparent in the reduction of disease and non-
battle injuries--the lowest ever in combat.
Horizontal Machine-to-Machine Integration
    We also strive to increasingly integrate operations at the most 
basic level--electron to electron. Victory belongs to those who can 
collect intelligence, communicate information, and bring capabilities 
to bear first. Executing these complex tasks with accuracy, speed, and 
power requires assured access and the seamless, horizontal integration 
of systems, activities and expertise across all manned, unmanned, and 
space capabilities. Such integration will dramatically shorten the kill 
chain.
    Machine-to-machine integration means giving the warfighter the 
right information at the right time. It facilitates the exchange of 
large amounts of information, providing every machine the information 
it needs about the battlespace and an ability to share that 
information. In the future, we will significantly reduce the persistent 
challenges of having different perspectives or pictures of the 
battlefield. Examples would be to ensure that the A-10 could see the 
same target as the Predator or to guarantee that the F-15 has the same 
intelligence about enemy radars as the Rivet Joint.
    We want a system where information is made available and delivered 
without regard to the source of the information, who analyzed the 
information, or who disseminated the information. It is the end product 
that is important, not the fingers that touch it. The culmination of 
the effort is the cursor over the target. It is an effect we seek, and 
what we will provide.
    The warfighters' future success will depend on Predictive 
Battlespace Awareness (PBA). PBA relies on in-depth study of an 
adversary before hostilities begin in order to anticipate his actions 
to the maximum extent possible. We can then analyze information to 
assess current conditions, exploit opportunities, anticipate future 
actions, and act with a degree of speed and certainty unmatched by our 
adversaries. PBA also relies on the ability of air and space systems to 
integrate information at the machine-to-machine level and produce high-
fidelity intelligence that results in a cursor over the target. The 
result--integrated operations--is our unique ability to conduct PBA and 
impact the target at the time and place of our choosing. This machine-
to-machine integration will include a constellation of sensors that 
create a network of information providing joint warfighters the 
information and continuity to see first, understand first, and act 
first.
    The C\2\ Constellation is the Air Force capstone concept for 
achieving the integration of air and space operations. Our vision of 
the C\2\ Constellation is a robust, protected network infrastructure, a 
globally based command and control system to encompass all levels of 
the battle and allow machines to do the integration and fusion. It uses 
Battle Management Command and Control and Connectivity and consists of 
command centers, sensors, and systems like the U-2, Space Based Radar, 
the Distributed Common Ground System, and our CAOCs. Given the C\2\ 
Constellation's complexity, the Air Force recognizes the need for an 
architecture to address myriad integration issues--methodically--so all 
elements work in concert.
                    securing america's next horizon
    Armed with the heritage of air and space power in combat, the 
lessons learned from our most recent conflicts, and the powerful 
advances in technology in the 21st century, we stand ready to deliver 
decisive air and space power in support of our nation. Whether called 
to execute a commanding show of force, to enable the joint fight, to 
deliver humanitarian assistance, or to protect our nation from the 
scourge of terrorism, we will deliver the effects required. Our ability 
to consistently answer the call is our dividend to the nation, a result 
of our sustained investment in people, technology, and integration.
    Our portfolio of advantages provides dividends on the battlefield. 
We bring to bear a diversified collection of capabilities, which answer 
the needs of a spectrum of combat and humanitarian operations. As one 
would with any investment, we will monitor, maintain, and adjust our 
investments as needed to reflect the demands of a dynamic environment. 
Transformational initiatives in the way we organize, train, and equip 
reflect such adjustments, changes that will result in significant gains 
for our force, for the joint team, and for our nation. Yet, we will not 
shift our focus from the core competencies that have provided the 
foundation for our success and continue to do so. The success of the 
Air Force resides in the airmen who employ the technology of 
warfighting through integrated operations with our joint and coalition 
partners. This is our heritage and our future. This is America's Air 
Force.

                  STATEMENT OF GENERAL JOHN P. JUMPER

    Senator Stevens. General Jumper.
    General Jumper. Well, I would like to make a statement. Mr. 
Chairman, Senator Inouye, members of the committee, thank you 
for the opportunity to sit here. It's a pleasure to sit here 
with Dr. Roche and to work for a boss who spends so much energy 
caring for our people and helping us all make sure that we do 
the right thing as an Air Force for our Nation.
    I'd also like to thank you, Mr. Chairman, and members of 
the committee, who take the time to go out and see our airmen, 
soldiers, sailors, and marines personally throughout the world 
when they are deployed. It's one thing for me to go out there 
and tell them how important they are. It's much more effective 
when we have the representatives of the people go out and send 
that message. I cannot tell you how important that is, and I 
thank you, sir, for your efforts to do that. I've watched you, 
Mr. Chairman and Senator Inouye, for many years, and I know 
that wherever there's a crisis, you all show up, and usually 
together, and it's a very powerful message that you send.

                     AEROSPACE EXPEDITIONARY FORCE

    Sir, the Air Force, over the last 10 years, has recreated 
itself from a contingent--from a cold war operation coming out 
of the cold war years into a contingency-based operation that 
we work with our Aerospace Expeditionary Forces (AEF). We have 
10 Aerospace Expeditionary Force packages that we actually used 
for the first time in 1999 in the air war over Serbia. But to 
prosecute Operation Enduring Freedom and Operation Iraqi 
Freedom, we had to call 8 of 10 of these packages forward in 
order to completely deal with the situation.
    We opened 36 bases in the process of this. Sixteen of those 
bases continue to be open today. At the height of operations, 
we had over 72,000 American troops and Coalition partners 
living in Air Force tents throughout the ADR. Today, that 
number is about 17,000 at bases where we have support 
responsibilities. We continue to engage across the spectrum of 
conflict, as you know, from the counter-drug mission to 
patrolling the skies over America, to those deployed operations 
that I mentioned.
    We are now in the process of reconstituting our force. It 
will take some time to get us completely reconstituted, but, 
just this month, we've started back in a normal rotation cycle 
with most of our people, even as we have two-plus AEF packages 
still deployed forward, dealing with the Operation Iraqi 
Freedom.
    Sir, even though you know that our AEF packages are serving 
us well, we can't do this, any of it, without a Total Force and 
a joint team effort. Secretary Rumsfeld has challenged us to 
make sure that everyone we have in uniform is doing the job 
that's required of someone in uniform. I can report to you, 
sir, that daily, 47 percent of our active-duty force is 
committed directly to the mission of the combatant commanders 
throughout the world. As you know, we're still flying 150 
sorties a day over Iraq, and some 50 sorties a day over 
Afghanistan, to include mobility sorties, strike sorties, air-
refueling sorties, intelligence, surveillance, reconnaissance, 
and close air-support missions.
    For our mobility forces, the tempo remains about 50 percent 
above the pre-9/11 activity. We owe the success of these 
mobility missions to the great contribution that we get out of 
our Air National Guard and Air Force Reserve. They make up more 
than 50 percent of this mission-area capability.
    In the skies--or in the Aerospace Expeditionary Force 
packages that we deploy, each one of those packages consists of 
20 to 25 percent of the Air National Guard or the Air Force 
Reserve. We put our Total Force to good use, and it works for 
us very well. In Operation Noble Eagle, patrolling the skies 
over the United States, which we've been doing now for 2\1/2\ 
years, over 80 percent of that effort is borne by the Air 
National Guard or the Air Force Reserves.

                           GUARD AND RESERVE

    Since 9/11, we have mobilized some 36 percent of our total 
Guard and Reserve. Today, about 6 percent remain activated, 
mobilized, and serving throughout the world. We integrate the 
Guard and Reserve with our daily activity, as the boss 
mentioned--with blended wings. We have the 116th Air Control 
Wing at Robins Air Force Base, which is our JOINTSTARS unit, 
that is a combination of Air National Guard and Active Duty Air 
Force in the same unit. The command of that unit rotates. 
Today, it happens to be commanded by an Air National Guard 
officer. This is working very well, although we still have work 
to do in trying to get the laws synchronized that will allow us 
to have common judicial standards and other standards. We will 
continue to work with you to get that achieved.
    Again, I want to thank the employers of our Nation who 
allow these Guard and Reserve members to come on active duty 
and to deploy. They, too, serve, because they give up probably 
the most capable part of their work force to come on active 
duty, put on the uniform and deploy, and they do a magnificent 
job for us. So we are very grateful to the employers in all the 
States who allow this to happen.
    As we look to the future, I worry about capabilities that 
we have to deal with. Secretary Roche spoke of the F/A-22, 
which is going to be necessary as we look forward to the threat 
of cruise missiles, as we look forward to new generations of 
surface-to-air missiles that in some places of the world are 
being deployed today, as we look at a new generation of fighter 
aircraft, such as the Su-37.
    Mr. Chairman, today we brought along three members that 
belong to you, sir. These are members of the fighter wing in 
Elmendorf Air Force Base in Anchorage, and I'll ask them to 
stand, Colonel Greg Neubeck, Captain Mark Snowden, and Captain 
Pete Fesler. These three gentlemen are F-15 pilots. They have 
just returned from an exercise in a country we haven't 
exercised with for some years, and they were able to fly their 
F-15s against some of these new fighters that we talk about. We 
can't discuss it here today, but in closed session I'd enjoy 
the opportunity at some point in the future to come and talk to 
you about the results of their trip. I think you would find the 
information very revealing. The Secretary and I are proud to 
bring along these three great young Americans who serve this 
country so well. Thanks, guys.
    Senator Stevens. Welcome gentlemen, and thank you, General. 
They obviously come from the top of the world and have a very 
fine home.
    General Jumper. Yes, sir.
    Senator Stevens. I'm going to have to ask you, General, if 
you can summarize pretty quickly. I've got to tell you that we 
have a vote starting at 10:30. We'll stay here until--or 
11:30----

                        RECRUITING AND RETENTION

    General Jumper [continuing]. I will do that, Mr. Chairman.
    Let me just say that as far as our retention and 
recruiting, we're meeting all of our goals, not only in the 
active, but in the Guard and Reserve, and it's truly a great 
Air Force team.
    Sir, I appreciate the opportunity to sit before you here 
today, and I look forward to your questions.
    Senator Stevens. Thank you very much.
    We do thank you very much. And those are wonderful 
statements.
    Gentlemen, because of the timeframe--I've discussed this 
with Senator Inouye--we'll take 5 minutes each, and then we'll 
see what questions we might have in the second round. We'd urge 
you to keep your responses as short as possible.

                                TANKERS

    I congratulate you, Secretary Roche, in being willing to 
talk about the tankers. We all have, you know, sort of, lash 
marks across our back because of the fact we tried to 
accelerate the IOC for those tankers. What is the IOC going to 
be under the current situation?
    Dr. Roche. IOC, I don't have it exact in my head. The first 
one will show up--if we do the normal KCX, the first one won't 
show up until 2010, so it'll be a few years after that before 
we have IOC. Had we been able to effect release in the first 
year that it was made available to us by the Congress, we would 
have had something like 80 planes available by 2010, and we 
would have had IOC.
    Senator Stevens. And the average age is somewhere about 43 
years today----
    Dr. Roche. Forty-three years. And, remember, the Secretary 
of Defense has the program in a pause, so it's not that we've 
rejected the lease that the Congress agreed to last time; it's 
in a pause.
    Senator Stevens. Well, the net result is, we delay the IOC, 
and we engender the growth of foreign-constructed tankers to 
meet our needs. I think that we will have done a disservice to 
this country. I hope that--pray to God that we'll solve this 
problem soon. It is just a jurisdictional fight between Members 
of the Senate, as far as I'm concerned. But I do think that 
you've taken too much heat on the subject.

                             SPACE PROGRAMS

    Let me go to the basic problem of this budget, as I see it. 
You've got budget requests for three Air Force space programs, 
transformational communications, the Evolved Expendable Launch 
Vehicle (EELV) launch--space launch--space-based radar more 
than doubles in fiscal year 2005. Those programs alone would 
grow about additional 30 percent by 2006, and we plan to go 
ahead and move into full-rate production of the F/A-22. Can all 
those programs survive under the trend line of the budget 
today?
    Dr. Roche. We have not been optimistic about the trend line 
and it is one of the reasons that I brought down the production 
rate from 22 to 32 per year, instead of going up to 56. I did 
this in order to smooth things out so we could address other 
subjects.
    The space programs of the United States are old, sir. They, 
too, need to be recapitalized. We don't talk about them as 
often as we probably should. A number of those systems have 
done very well because they have just been built so 
beautifully, but they need to be recapitalized. Space-based 
radar, as a part of a portfolio of sensors that can be used for 
intelligence and for tactical operations, is a necessary thing. 
We believe that, as we see our budget, we can smooth these in. 
Yes, sir.

                                 F/A-22

    Senator Stevens. What's the IOC now for the F/A-22?
    Dr. Roche. It should be the end of calendar year 2005, sir.
    Senator Stevens. Someone asked me the other day why we're 
building the F/A-22. What's the threat?
    Dr. Roche. I would like to meet in a closed session and 
tell you about some of the new aircraft, but certainly there 
are existing surface-to-air missile systems now that, if not 
dealt with by something like the F/A-22, will deny airspace to 
us for land operations, for any other support operations. There 
are emerging threats, like cruise missile threats, that only 
the F/A-22 can handle because of its super-cruise. Its 
capabilities are such that it replaces a number of other 
aircraft. We will become far more efficient in the use of our 
airmen by having far more capable airplanes. We'll have fewer 
of them, but we'll be able to use the crews much more often. So 
it's a combination of the threat, the efficiency, and the move 
into new technology, which enables you to not have to spend the 
kind of funds we have to spend now on maintenance, the fact 
that our F-15 fleet is roughly 22-plus years old, and the F-
15Es are the young part of that. We have flight restrictions on 
some of our F-15Cs because of some problems in the vertical 
stabilizers.
    Senator Stevens. Well, I thank you. This committee did save 
the C-17. We saved the Predator. We saved the V-22. And as far 
as I'm concerned, we're going to save the F-22.
    Senator Inouye?
    Senator Inouye. Mr. Chairman, I concur with you.
    Mr. Secretary, on the F/A-22, about 20 months ago, you 
added a new, robust air-to-ground capability. And, as such, the 
Secretary of Defense suggested that the cost could go up by 
$11.7 billion over a 10-year period. Has that been factored 
into the budget?
    Dr. Roche. Sir, the Secretary of Defense didn't do it; it 
was the General Accounting Office, if I'm not mistaken, Senator 
Inouye. They took an honest-to-goodness wish list from our Air 
Combat Command that goes until the plane is dead. Now, we're 
going to keep this plane for 30 years, so there will be things 
that one might think of doing 20 years into the future. The 
work that we are doing to make--to enhance the capability of 
this airplane for air to ground--it already has some 
capabilities--will actually, in some cases, save money. We'll 
put a new radar on that's 40 percent cheaper than the existing 
radar. We'll incorporate the smaller-diameter bomb, which will 
be done for lots of other reasons. So the amount of money that 
we have planned that we will actually spend is budgeted, and is 
less than $3.5 billion, and that's for all the aircraft that 
come after it.
    Now, just as a comparison, sir, over the same FYDP period 
we'll invest $2.5 billion in just doing upgrades to the B-2 
bomber. There are only 21 of them.
    Senator Inouye. Has the change made the full-rate 
production decision a little later now? You were going to do it 
in December 2004.
    Dr. Roche. The full production decision for the F/A-22, 
sir, will be, again, a function of how well we do in initial 
operational test and evaluation (IOT&E). We have worked out 
every problem we can think of. We have issues associated with 
IOT&E sortie generation and meantime between maintenance hours 
that are really an attempt to interpolate from what our 
measures after 100,000 hours of flight (which won't happen 
until 2008) to what they ought to be today. We believe that, 
barring something we can't see now, we should enter IOT&E at 
the end of April. That's in 2004. The full-rate production 
decision would be at some point thereafter; again, it will be 
event driven. But we are ramping up slowly, with your help. We 
went to 20 airplanes, 22 airplanes; this budget, 24 airplanes, 
to get to 32 without incurring additional cost by rushing.

                           BOEING CORPORATION

    Senator Inouye. As a result of certain alleged incidents by 
Boeing employees, Senator Rudman was asked to conduct an 
investigation, and, as a result of that, he said that despite 
problems that have occurred, ``We believe it would be both 
unfair and incorrect to conclude that the company treats ethics 
and compliance matters lightly.'' And then he further went on 
to say that, ``Boeing programs are robust and confirm that the 
company pays significant attention to ethics and compliance 
matters.''
    Have these results or findings had any impact on the 
progression of replacing the tanker fleet?
    Dr. Roche. I'm certain that they've been an input to the 
Inspector General's review. There is an Inspector General 
review. There's also a Defense Science Board look, across the 
board. There's a group from the Industrial College of the Armed 
Forces who were looking at, ``How innovative was our approach? 
And what lessons are to be learned?'' We, clearly, can't take 
action based on Senator Rudman's report, but I know that that 
has been an input to the Inspector General's thinking.

                              END STRENGTH

    Senator Inouye. I believe you're planning to downsize your 
force end strength. How do you propose to do that?
    Dr. Roche. We are, at this point, Senator, a little under, 
sir--about 16,000 over and above our end strength, and it is--
we're suffering from riches, Senator. We just took stop-loss 
off last July. We had anticipated that our airmen would return 
to the normal sequence, which is: we lose 37,000 a year, we 
recruit 37,000 a year. With a lot that you have done, in terms 
of benefits, 100 percent housing, a whole series of things, we 
are exceeding our retention rates, we have pilots coming back, 
and we finished 40 percent of our recruiting for this fiscal 
year last year. So we're having to see if some of our airmen 
would like to transition earlier into the Guard and Reserve, to 
get on with, maybe, their academic life. We are trying to not 
lose faith with any of these men and women who have had faith 
in us, but they like serving our Air Force, and there is a 
sense of esprit that I know you've seen when you've dealt with 
them over in the Area of Responsibility (AOR). They have a 
sense of self worth, that they're doing something terribly 
important, and they want to stay. We're trying to adjust this 
so maybe we can have more of them migrate to our Guard and 
Reserve.
    John?
    General Jumper. Senator, we do not want to kick anybody out 
of the Air Force that wants to stay. And we lived through--in 
the late 1980s and early 1990s, we lived through involuntary 
separations. It was destructive for the morale of the service. 
We will ask your help to make sure that we don't have to kick 
out anybody that doesn't want to go, even as we try to get down 
to our authorized numbers as quickly as we can.
    Thank you, sir.
    Senator Inouye. Thank you very much.
    Senator Stevens. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    First, let me say to the Secretary that I'm really pleased 
that you're not moving over to the Army. I know that was a long 
and tortured period for you, but, frankly, I think you've done 
a wonderful job, and I appreciate your commitment to the United 
States Air Force and to this country's security.

                      BASE REALIGNMENT AND CLOSURE

    Let me ask a question about base closing, if I might. The 
base closing commission proposition that has everyone nervous, 
I expect. And let me ask whether--as you understand it, whether 
this base closing round is going to look at nearly every Air 
Guard and Reserve facility. The reason I ask that question is, 
in the 1995 background only a handful of Air Guard and Air 
Force Reserve facilities were actually evaluated. What's your 
impression of what will happen in this base closing commission 
round?
    Dr. Roche. We really believe in the Total Force. We would 
like everyone to be looked at. We are doing it slightly 
differently. We're doing it in accordance with the 
congressional law and regulation, but we're starting out taking 
that very seriously, in terms of what is the force structure we 
expect to see around 2020-2025. Because we've always noted that 
we'll be replacing 750 F-15-like aircraft with roughly 400 F/A-
22s. Our Air Force will be getting smaller. What are the 
systems we think we'll need for the contingencies in the 
future? What are those capabilities? Where are they best 
deployed inside the United States? How much overseas basing 
will we have to do? Just go through the capabilities. Then 
we're going to look at things like ranges. As you know, 
supersonic range is a critical to us. Other air ranges are 
critical to us. Then keep working our way down, in terms of 
what kinds of systems tend to be for the Atlantic-Pacific. 
Which are swing systems? How do we deal with Operation Noble 
Eagle?
    We believe as we go through that, plus the work that's 
being done by the joint staff of where is there commonality of 
training, hospitals, other things, that the answer will start 
to come out pretty obviously.
    Guard is working on its own, doing some very innovative 
thinking about how they can better integrate with the Active 
Force, or complement it.
    Senator Dorgan. As you know, my State houses two air bases, 
one at Minot, one at Grand Forks--one B-52, one a tanker base--
as well as an Air Guard Base in Fargo.
    Dr. Roche. And missiles.

                                  B-52

    Senator Dorgan. And missiles in the Minot base, as well--at 
the Minot base. Let me ask you how you see the role for the B-
52 and also the role for the core tanker base as we move 
forward.
    Dr. Roche. I can't speak of any specific base with respect 
to the systems.
    Senator Dorgan. Yeah.
    Dr. Roche. We see the B-52 as a system that we fly very 
differently. We fly slower, higher. We picked 90 of the best of 
the 700 that were built. These are the planes that did not 
fight in Vietnam. Some of the tankers that were associated with 
those B-52s are also in good shape, even though they're old, 
and they would be the tankers we would expect to fly when 
they're roughly 70 years old, even if we began recapitalizing 
now. We see the B-52 having a future for the next, say, 10, 20 
years. But we now are looking at how to replace the platform.
    Senator Dorgan. Well, the B-52 is estimated to be out 30 
years, is it not?
    Dr. Roche. It is, and we'll track both the costs of it and 
how many we'll use, how many we'll use for standoff jammers. 
But bomber capabilities are located where they are in the 
United States for very good reasons; it's because they swing. 
Originally, the northern States had them, because we went over 
the top.

                                  B-2

    Now we've found that when we place the B-2, it is wise to 
put a bomber facility in the center of the United States so it 
can swing to the Atlantic or the Pacific. For example, Dyess 
Air Force Base in Texas, just to name one that's not in your 
State, sir, needs ranges nearby. These are important things for 
us to take into account as we look at placement.

                              TANKER FLEET

    Senator Dorgan. Will your ability to maintain the tanker 
fleet be substantially affected by the 767 issues?
    Dr. Roche. We think that we will not replace the full 550 
KC-135s with 550 new wide-body tankers. We'd like to--it may 
not all be 767s by the time you go over 20-so years to do it, 
but it'll still be, we think, something above 400, sir.

                              GLOBAL HAWK

    Senator Dorgan. And have you--when will you describe a 
basing plan for the Global Hawk, the full contingent of Global 
Hawks?
    Dr. Roche. Right now--you remember, in Iraq our Global Hawk 
fleet consisted of one airplane.
    General Jumper. That's correct.
    Dr. Roche. And as these come in, we will be trying to do 
that. We have been showing the members as many of our roadmaps 
as we have finished. So we've shown a tanker roadmap, we've 
shown a C-130 roadmap, lifter roadmap. We would continue to do 
that, to share our thinking early with various members.
    In terms of Global Hawk, right now, Beale Air Force Base is 
the right place for them to be, because of their closely 
associated mission with the U-2. Over time, as we use these--
and there will be other remotely-piloted aircraft, the UAVs--we 
will be picking locations for them.

                                 F/A-22

    Senator Dorgan. Mr. Chairman, let me make one additional 
comment. First of all, I agree with the Chairman's comment 
about the F/A-22. I think that's a critically important weapons 
program for us to maintain air superiority long into the 
future. I think Global Hawk and Predator programs have been 
extraordinarily valuable, and I would commend the Air Force and 
the men and women who run those systems.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    And then I finally want to say, again, many of us are very, 
very nervous about this base closing commission process. I 
looked to the report that was issued today by the Pentagon. 
It's very hard for us to quite understand exactly where the 
magnifying glass is placed here, but we've got some great 
bases. And I'm not altogether sure, having watched the Pentagon 
plan in the long term, that we know what's going to happen 5 
and 10 years from now with respect to our needs. And to be 
talking about a commission that sizes the military for 20 
years, I'm not all that convinced that we ought to move as 
aggressively as you think, Mr. Secretary, and others in the 
Pentagon think. But, you know, again, I think we'll work 
through that, and I appreciate very much your appearance here 
today.
    Dr. Roche. Thank you for your thoughts. I would say we are 
trying to factor in the fact that we cannot predict the future. 
So we're trying to hedge, and we're trying to hedge in many 
ways.
    Senator Stevens. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Before this started, I had a chance to talk with the 
Secretary and General Jumper before the hearing, and, it's 
interesting, we were referencing back to the Secretary's time 
when he was here with ``Scoop'' Jackson. I'm looking around the 
committee. You and I and Senator Inouye and, I believe, Senator 
Cochran all served here when Senator Jackson was here. He was 
one of the giants, the real giants, of the Senate, and one who 
did, as you do, Mr. Chairman, formed those bipartisan 
coalitions that are so very, very necessary in these defense 
bills. And I mean that as a compliment to both you and Senator 
Jackson and, of course, to Secretary Roche, who's tried the 
same way; I think one of the reasons why the Air Force is doing 
so well and why it has such support up here. I've also had some 
of these discussions with General Jumper, and we--our 
discussions have ranged everywhere from what it's like growing 
up in small-town America to where the Air Force is going to be 
well into the 21st century with the kind of threats and the 
unpredictability--as you said, Mr. Secretary, the 
unpredictability of the future.
    General Jumper, if I might--this is probably one of those 
rare times that a parochial question has ever come out from a 
member of the Appropriations Committee, but I am the co-chair 
of the U.S. Senate National Guard Caucus, along with Senator 
Kit Bond of Missouri, and we have close to 90 Members of the 
Senate, most of the Senate. We strongly support your effort to 
transform the Guard's and the entire Air Force capability to 
meet the Nation's needs. I think, probably more than any time 
since I've been in the Senate, we see the integration and the 
need of using the Guard with our regular forces, certainly in 
Iraq and Afghanistan, and being prepared in that second, third, 
and fourth wave if we need it.
    I talked with you about a proposal I've been working on 
with the Air National Guard unit in my home State of Vermont, 
the F-16 unit. This F-16 unit, Mr. Chairman, is the one that, 
immediately after--now, by ``immediately,'' I mean immediately 
after--the attack on New York City, in September 11, they were 
flying cover, and flew cover for weeks on end, around the 
clock, over New York City. Flying based out of Vermont, it 
doesn't take them very long to get to New York City. And, of 
course, you had tankers basically parked up there, and they 
just ran around the clock.
    Under our proposal, the Active Force would send many of its 
pilots and maintenance personnel to the Vermont Guard for a 
tour that would increase integration among the Guard and the 
Active Force, allow the Active Force to take advantage of the 
high level of experience we have up there. I understand it 
would actually save money, in the long run. I'd also mention 
that the Burlington area is a very nice place to live, having 
lived there all my life--all my life, so far. It would be a 
great retention tool. And I'm wondering, General, if you'd give 
me an update of where this proposal stands in the Air Force.

                           GUARD AND RESERVE

    General Jumper. Well, Senator Leahy, as you are aware, we 
currently have a great number of initiatives going on with the 
Guard and Reserve especially the Air National Guard, as the 
Secretary mentioned. This notion of bringing active duty and 
National Guard units together is working very well for us in 
Georgia right now. It's only proper we also look at it the 
other way not only consider bringing the Guard and Reserves to 
the active units, but look at it the other way around. As we 
also look at what makes sense with regard to consolidations of 
units that are in close proximity to one another and other such 
ideas that you're aware of that we're actively pursuing in the 
Air Force.
    So, sir, I think that this idea has merit. It is certainly 
worth us considering and taking advantage of the great 
opportunity to live in some of our cities around the world that 
we don't normally have access to. So it's under consideration 
right now, sir.
    Senator Leahy. General, will you or your staff keep me 
posted on how it goes? Because I want to--I really do have a 
very strong interest in this, and not just from a parochial--I 
go to bat for the Vermont Guard, because they do a superb job 
there, always at the top level of preparedness, fitness, and 
all the rest. And I would--I'm a typical enough Vermonter, I 
wouldn't go to bat like that unless they were that good. I just 
think it can work well. I also think that, from our--the east 
coast still is a danger area. I'll put this--other questions in 
the record for both of you.
    But I'm just curious, is this in the budget?
    General Jumper. Sir, this would--as far as I understand it, 
it would have to be a part of a BRAC consideration to talk 
about how we adjust forces if it's in any significant numbers. 
But it's part of the overall consideration, under military 
value, that we are dealing with, as part of that process.
    Dr. Roche. If I may, sir, I think it's a legitimate----
    Senator Stevens. The gentleman's time has expired.
    Senator Leahy. Could I just hear his answer to just that 
one question, Mr. Chairman?
    Dr. Roche. Very briefly. The Guard is looking at a number 
of innovative things, and they're all being listed. And General 
``Danny'' James is doing a terrific job of working with his 
colleagues to be part of the solution to this problem, not part 
of the problem.
    Senator Stevens. Senator Cochran.

                        COLUMBUS AIR FORCE BASE

    Senator Cochran. Mr. Chairman, thank you.
    Mr. Secretary, General Jumper, I'm fresh back from a trip 
to my State, where I had the pleasure of cutting a ribbon at 
Columbus Air Force Base for a new facility, a radar approach 
control facility, part of a control-tower facility, as well, 
that will be ensuring that we'll have one of the most modern 
training facilities for pilots in the country. We already are 
very proud of the fact that, at Columbus, one-third of the Air 
Force pilots are trained there. Over 468 during fiscal year 
2003. And not long ago, we participated in a ceremony in 
Jackson, where the Air National Guard received the first C-17, 
and training is underway there. We're really proud of the fact 
that that's occurring in our State, as well, and also that 
Keesler Air Force Base continues to train, I guess, as many 
people as any Air Force base training facility anywhere, 40,000 
students each year. We have the largest medical facility, 
medical group in the Air Force--is also located at Keesler Air 
Force Base. So we're very interested in the Air Force's budget 
request. We're very interested in your requirements and helping 
make sure that this committee responds to your needs.

                                  C-17

    I think that it's very clear that you're embarking on some 
important new modernization efforts. The C-17 is one example. 
And we hope that--the procurement schedule, as I understand, 
may be going up from your earlier expectations of your needs. 
Could you tell us what your expectation of a procurement 
schedule is for the C-17? Is your budget sufficient to give you 
what you need?
    Dr. Roche. Senator, we have this multi-year for 60 that 
we're involved in at this time, and that will give us a total 
of 180. There are two things that will drive the follow-on 
decision. One is, the joint staff is looking at what the 
mobility needs are for our Total Force--all Army, Navy, Air 
Force, and Marines--to update what was done a number of years 
ago, in terms of how much lift is required. They will finish 
that at some point here in the not-too-distant future. That 
will then feed into us, in terms of what we need to be able to 
do in million ton miles per day (MTMS/DAY).
    The second issue that we are attempting to resolve is 
whether or not the C-5As can be modernized through the 
Reliability Enhancement and Re-engining Program (RERP). We're 
going to do it for all the B models, which are the newer C-5s. 
We're going to do the avionics for all of the A models. And the 
issue is, if the A's are in good enough shape to be able to 
have service life extension, then that would then compensate. 
If the number of MTMS/DAY required goes up, if the C-5As are 
not worth investing in, then clearly the other thing we'd do is 
get more C-17s. But this is in flux right now. We have an Air 
Force Fleet Viability Board, which is independent, looking at 
the A's, as we speak. We expect that report to come to John and 
me by the end of April, end of the month. We'll start to then 
get a sense of what the condition of the A's are. We're waiting 
for U.S. Transportation Command (USTRANSCOM) to finish with the 
joint staff, its desires for lift. Then, from that, we'll come 
and make a decision on the follow-on procurement. We have a few 
years before we have to get to that.

                              GLOBAL HAWK

    Senator Cochran. One other procurement item that you 
mentioned was the Global Hawk. You said you were going to ask 
for funds for four of those. That sounds like just a few. Do 
you have any question about the effectiveness or the importance 
of it in the recent Iraqi Operation?
    Dr. Roche. It's four in the budget; it's 34 in the Future 
Years Defense Plan (FYDP).
    Senator Cochran. I see.
    Dr. Roche. And, in fact, as we often point out, General 
Tommy Franks was very kind to John and me. He allowed us to put 
systems into Afghanistan that were really not ready for prime 
time. We had a couple of Global Hawks, as you know, auger in. 
We had a couple of Predators auger in. But we learned so much 
that by the time Iraqi Freedom came, we had terrific 
responsiveness from the Global Hawk. It's done beautifully, and 
we anticipate it being part of our inventory for a great deal 
of time.

                             AIRBORNE LASER

    Senator Cochran. One of your defensive missile programs is 
the airborne laser program; the primary mission, knocking down 
ballistic missiles during the initial boost phase of flight, 
and using, as I understand it, an Air Force platform for that 
purpose. What is the status of that, and what is the outlook? 
Do you have anything you can tell us about the progress being 
made in that program?
    Dr. Roche. John has had a personal interest for a long 
time, and I'd like to let him answer.
    General Jumper. Sir, we've purchased the first airplane 
that will be the test bed for the laser, and the laser system's 
scheduled to fire on the ground, I believe, by the end of this 
year. Then it will be disassembled, put into the airplane, and 
further tested.
    There have been problems with the airplanes, or with the 
system, as you can imagine, something this complex. When I talk 
to the scientists and engineers that are dealing with this, 
there is still great confidence that this thing is going to 
work. So it's funded appropriately to complete the engineering, 
to do the demonstrations, and to make sure that we are 
successful in what we have done so far, and it will all revolve 
around our ability to get a successful shot out of this thing 
in the next year or so. So I'm very confident, and I appreciate 
your interest in it.
    Dr. Roche. And, as you know, it's in the Missile Defense 
Agency's budget, it's not in ours, sir. We view it like uncles 
looking at it. It's the experiment that ought to be done.
    Senator Cochran. Yeah.
    Dr. Roche. If it works, it's going to be fantastic.
    Senator Cochran. Yeah.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    Secretary Roche, General Jumper, thank you for joining us 
today, and thank you for your service to our country.
    I'd like to ask you another parochial question, which you 
can certainly expect from members of the panel from time to 
time, and it's one of interest to me, as well as Speaker 
Hastert, Congressman Costello, and Congressman Shimkus. In 
fiscal year 2004, Congress provided $12.2 million to continue 
the C-9 mission at Scott Air Force Base for an additional year 
while a study was being completed on the mission of the 932nd 
Airlift Wing. In January, that study was released, and 
concluded that the men and women of the 932nd could meet the 
increased operational support aircraft, (OSA), requirements of 
the Air Force. And I know other studies are going on, but I 
wanted to ask you what your plans are to meet OSA requirements 
since the C-9As are scheduled to retire very soon, in fiscal 
year 2005, and it appears that we've not provided any funding 
to continue the mission. I know you have C-40s on your unfunded 
requirements list, but what do you plan to do between now and 
fiscal year 2007, when the C-40s reach----
    Dr. Roche. I'll ask John to see if my memory is shaky on 
this, Senator. We believe that the C-9's at Scott ought to be 
retired. We'd like to flow the C-9C aircraft from Andrews to 
Scott, and then backfill Andrews with new C-40s. That's the 
plan. We'd like to be able to get that more defined over the 
next couple of years.
    We have found that the medical evacuation planes, 
especially--we have so many other systems that do that well 
that that's not the purpose, but we still need, in the center 
of the country, the kind of capabilities that were contained in 
the C-9 fleet at Scott, and we'd like to maintain it by flowing 
aircraft to Scott from Andrews.

                                 C-40S

    Senator Durbin. Should you receive funding, how many C-40s 
will you acquire, at what cost?
    Dr. Roche. Oh, sir, may I get back to you----
    Senator Durbin. Certainly.
    Dr. Roche [continuing]. For the record?
    [The information follows:]
                                Secretary of the Air Force,
                                          Washington, May 10, 2004.
The Honorable Richard J. Durbin,
United States Senate,
Washington, DC 20510.
    Dear Senator Durbin: Thank you for your continued support of the 
United States Air Force and particularly the men and women of Scott Air 
Force Base (AFB). During my testimony before the Defense Subcommittee 
on March 23, 2004, you asked me to explain what the Air Force plan is 
for Scott AFB once the C-9s leave.
    The Air Force has identified a requirement for three C-40s at Scott 
AFB IL on our fiscal year 2005 Unfunded Priority List. If funding were 
appropriated for these aircraft, the Air Force Reserve Command's 932d 
Airlift Wing, along with an Associate Active Duty unit, would operate 
them. To facilitate a transition from the C-9A to the C-40, we have 
developed a bridge plan using C-9Cs.
    C-9As would remain at Scott until replaced with C-9Cs from Andrews 
AFB MD. Beginning in fiscal year 2005 the Air Force will transfer C-9Cs 
to Scott AFB. As a C-9C arrives at Scott, a C-9A would retire. The 
intent is to continue to operate at least three C-9s until C-40Cs 
arrive.
    According to the plan, two C-40Cs would deliver in fiscal year 2007 
and one in fiscal year 2008, though we will make every effort to 
deliver the first C-40C in fiscal year 2006. As a C-40C arrives at 
Scott, a C-9C would retire.
    I trust this response clarifies our intent for C-40s and the 932 AW 
mission. On behalf of the men and women of the Air Force, let me convey 
my gratitude for your interest and support.
            Sincerely,
                                                    James G. Roche.

    Should the Air Force receive fiscal year 2005 funding it would 
acquire three C-40C aircraft for Scott AFB, IL.
    Total cost for purchasing and establishing the C-40C operation at 
Scott follows. The cost includes sustaining the current C-9A operation 
at Scott during fiscal year 2005.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
                                                               2005
------------------------------------------------------------------------
Aircraft purchase (3xC-40C).............................           225.0
C-9A Fiscal Year 2005 Sustainment.......................             8.3
C-40C Site Activation...................................            12.4
O&M.....................................................             3.8
MILCON..................................................             6.0
                                                         ---------------
      Total.............................................           255.5
------------------------------------------------------------------------

    Dr. Roche. I believe the number of planes is three, and 
I'm----
    General Jumper. We need to get back to you on that, sir.
    Dr. Roche. Yes, sir.
    Senator Durbin. That's fine.
    When would the Air Force be able to assume the operation 
and maintenance costs for those aircraft?
    General Jumper. For the new C-40s?
    Senator Durbin. Right.
    General Jumper. Sir, I think that once we got them, we'd be 
able to--it would probably be a part of a contract that would 
come with the airplanes, and we'd be able to assume it right 
away.
    Dr. Roche. The beginning of it would be a warranty period. 
There might be some----
    General Jumper. Right.
    Dr. Roche [continuing]. Some contract logistics support, 
because we don't have a big fleet of these. Anything we have a 
big fleet of, we have a strategy to migrate eventual 
maintenance to our depots.
    Senator Durbin. And I want to make sure--maybe you've 
answered this, but I want to make certain I understand it--
where will the C-40s be stationed, and what unit will they be 
assigned?
    Dr. Roche. They will replace C-9Cs at Scott Air Force Base 
assigned to the 932nd Airlift Wing.
    Senator Durbin. C-40s at Andrews?

                                 C-9AS

    What is the bridge plan, since the C-9As will be retiring 
soon?
    Dr. Roche. To move planes from Andrews to Scott.
    Senator Durbin. Do you know what the cost will be for 
fiscal year 2005?
    Dr. Roche. Sir, I'm sorry, not off the top of my head.
    Senator Durbin. Are there any C-9Cs that are noise 
compliant?
    General Jumper. No, sir, there are not.
    Senator Durbin. What will it take----
    General Jumper. Sir----
    Senator Durbin [continuing]. Will it take to make them----
    General Jumper [continuing]. It's not only noise compliant, 
it's compliant with all the avionics restrictions that are 
coming down the road. I don't have a number, but it would be 
huge. We can get you that number.
    [The information follows:]

    None of our C-9Cs are stage III noise compliant. The Air 
Force plans to primarily use the C-9Cs for CONUS travel, where 
hush kits are not currently required.
    Based on the USMC experience with equipping their two C-9B 
aircraft with hush kits, it would cost approximately $2.5 
million per aircraft. The cost to equip the three C-9Cs and 
spare engines ($2 million) is estimated at approximately $9.5 
million.
    Due to increase weight of the hush kits (approximately 300 
lbs.), the C-9C will experience reduced range and/or reduced 
capacity (cargo and passenger loads).

                           GUARD AND RESERVE

    Senator Durbin. May I ask you another question? Because I 
note that you're not only responsible for the active Air Force, 
but have responsibilities for the Guard and Reserve. What are 
your projections about recruitment and retention for Guard and 
Reserve units, based on current activations?
    Dr. Roche. Yes, sir. We're delighted to answer this one. 
These are fabulous people. Only about 35 percent, or less, of 
our Air National Guard and Air Force Reserve have been 
mobilized in these conflicts. We have something like 6 percent 
mobilized at this time. When we asked them about recruiting, 
because we were worried, and we had a conscious plan after 
Operation Enduring Freedom to make sure that our commands did 
not hold on to guardmen and reservists more than they needed to 
be. We said we had an ethical requirement to return these 
colleagues back to their normal lives. We created the program 
of thanking every single employer. We sent a pin, replicating 
something that was done in World War II, to each employer to 
say, ``Thank you for what you've done for these fighters.''
    Their recruiting seems to be doing fine. Sometimes you 
scratch your head and say these are people who are so dedicated 
and so patriotic that they go through all kinds of family 
disruptions in order to serve their country. They're truly 
wonderful.
    We are also trying to have our excessive active duty 
members, who we can, migrate to the Guard and Reserve to 
complete their obligated service, a program we call Palace 
Chase, which we're thinking of expanding. So we very much worry 
about the Guard and Reserve because we're so dependent on them.
    General Jumper. Right now, sir, we're meeting 100 percent 
of our goals in both Active, Guard, and Reserve, for both 
recruiting and retention.
    Senator Durbin. Mr. Chairman, I would just say, I'm glad to 
hear that. That's great information. It says quite a lot about 
the men and women serving us in the Guard and Reserve, as well 
as our active duty. It is unfortunate, and I hope to change 
soon, the fact that activated Guard and Reserve Federal 
employees don't receive the same type of consideration from 
their employer as many in the private sector.
    Dr. Roche. And the States.
    Senator Durbin. And States. Some States do, some don't. 
But, clearly, we should set an example. Ten percent of the 
Guard and Reserve in America are Federal employees, and, once 
activated, they don't receive the same helping hand that many 
private employers are providing activated Guard and Reserve.
    Dr. Roche. It's a mixed bag, Senator. There are some 
private employers, who, after 2 months, don't support. There 
are others, who are very patriotic, who have borne the cost. 
Every time I find one of them, I thank them. When I find a 
particularly outrageous case of a private employer, I've been 
known to pick up the phone and call the Chief Executive Officer 
(CEO) and have a chat.
    Senator Durbin. Oh, I'm glad you do. I just hope the 
Federal Government will set an example. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    Gentlemen, we have 10 minutes left, and we're going to set 
a clock for 3 minutes for each one of us to ask questions, if 
you'll agree.
    Let me just make a statement and ask one question. I'm told 
that the tankers flew 6,193 tanking sorties in Iraq alone 
during this past period, and that they've off-loaded over 417 
million pounds of gas to be used in the ground vehicles. That 
shows how critical those tankers are to us. And I do hope that 
we can proceed further.

                                 F/A-22

    My question is, Is it possible, in this open session, to 
talk about the sorties that have been flown by the F/A-22s, 
sorties in this testing period, routinely against adversaries 
like souped-up F-15s? Can you tell us what happened, and give 
us a little description of that?
    Dr. Roche. If I may, just put----
    Senator Stevens. John, can you do that?
    Dr. Roche. 12,000 tanker sorties out of 99,000--12,000 are 
tankers.
    General Jumper. Sir, we've got more than 5,000 hours of 
testing on the F/A-22 airplane now. The guys that are flying 
against it are our very best. And the testimony that comes back 
to me is, ``When we fly against the F/A-22, we never see a 
thing, and we're dead before we know it.'' Like Dr. Roche said, 
we have received testimony from the guy who has been commanding 
our test efforts, and is a seasoned fighter pilot of many 
years. He said, ``If we went to war today, this is the airplane 
I'd want to take.'' It goes on and on. So it's very, very 
positive, sir.
    Senator Stevens. These guys behind you, were they part of 
that group?
    General Jumper. Sir, these are F-15 pilots. There's no 
doubt that they'll be flying F/A-22s someday, and they know 
what the airplane can do. They talk to their buddies, and they 
know what the airplane can do.
    Senator Stevens. Just being a little provincial, I hope you 
stick around. I have asked for a photographer. I'll send a 
picture home with you----
    General Jumper. Yes, sir. You bet.
    Senator Stevens [continuing]. Here.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I'm curious to know what 
progress we are making in the protection of our aircraft in the 
Iraqi theater. I know there's an infrared laser capability 
that's being developed and tested. Is this an effective defense 
against missiles that are aimed at our aircraft that are in 
tankers and other similar aircraft?

                        MISSILE WARNING RECEIVER

    Dr. Roche. There are a number of levels of protection. 
There's the--we basically have a warning receiver, missile 
warning receiver, that tells you something's shot at you, and 
then you have a countermeasure you deploy. You can have 
difficulties with both. The countermeasures that are the most 
widespread are flares. There's a system called directional 
infrared countermeasures (DIRCM), which is on our special 
operating C-130s. There's a derivative of it, called LAIRCM, 
which is large aircraft infrared countermeasure system. Given 
the fact that there are components of this that are produced by 
a series of companies, there's only so much that can be done in 
a period of time, we are spreading these out over a number of 
our C-17s, C-130s, and Special Operations aircraft. We have a 
classified number now installed. We are doing it in such a way 
that we can put some capability on almost all of our large 
aircraft C-5s, as well. As we get enough of these systems, 
we'll start adding systems to each airplane. They have been 
extensively tested down at White Sands over and over and over. 
They were retested again most recently when we had concerns 
about Iraq. When those systems are installed, the result, so 
far, is they've been very, very effective.

                           SPACE-BASED RADAR

    Senator Cochran. There's also an effort to move forward 
with a space-based radar system. Could you give us a report on 
the status of that?
    Dr. Roche. Yes, sir. It's in its architectural phase. One 
of the issues that we're trying to work out is to--how much 
money do you want to have in the space-based radar part, as 
compared to how much do you want to have in atmospheric 
systems. There are things that space-based radar can do that 
clearly you could otherwise not do--circle the world in a short 
period of time, look deep inside a denied territory. But there 
are certain technical things that can be done by systems like 
JOINTSTARS or the upgrade to JOINTSTARS, called multi-platform 
radar technology insection program (MP-RTIP), which is a module 
improved radar that would go on E-10A command and control 
aircraft, that can do for the ground forces what space-based 
radar cannot do. Therefore, we believe this is a portfolio, and 
the portfolio to have some space-based radar, but we would not 
want to have all our eggs in that basket; you'd want to go 
across, so that you can do both synthetic aperture radar 
imagery, as well as moving target indicators, as well as large 
sweeps of the globe. So it's complementary.

                       JOINT STRIKE FIGHTER (JSF)

    Senator Cochran. The Joint Strike Fighter, multi-role 
fighter, that is under development, I understand the aircraft 
has been experiencing some development problems, the most 
widely publicized having to do with the overall weight of the 
aircraft. You mentioned this. You touched on this in your 
statement. What is the outlook for this program?
    Dr. Roche. The first point I'd like to make, Senator, is 
that this is an airplane. It's one of our complicated 
airplanes. If you look at the history of our aircraft, we 
demand enormous amounts from them, and they are never what the 
viewgraphs say. The JSF is going from the viewgraph stage of an 
airplane to real drawings, real weight measurements, real 
component measurements, en route to being developed. It's only 
completed two of what was originally a 10-year development 
program. Now it's two of an 11-year development program. Weight 
has come up. You would expect that about this time. I can sit 
here and predict what kinds of problems we're going to see in 
2008, because they're natural in the development of these 
systems.
    Is the weight a terminal problem? We don't think so. But 
because it most severely affects the short-takeoff and landing 
airplane, we believe it prudent and right in our 
responsibilities to work that problem soonest, without 
disrupting the program, and to put all the attention on risk 
reduction of the STOVL version. If we can get the weight down, 
more thrust out of the engine, and possibly flying it slightly 
differently; you don't have to keep every constraint the same 
so that it's an effective weapons system, then we would like to 
proceed with the program.
    But we are very attentive to it, especially now that the 
Air Force wants to purchase some of the STOVL units. So we and 
the Marines are joined at the hip on this.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Stevens. I do hope you'll mobilize, as much as you 
can, the support for the F/A-22. I recall that the B-1, the B-
2, the 117, C-17, you think of any new system that was right on 
the line of becoming right up to IOC, it's been just attacked 
viciously. But they're always in favor of the systems that are 
over the horizon. Okay? Now, this system is needed, and I hope 
we can get the support we need, here in Congress, to maintain 
it.
    I thank you all for what you're doing, and I do really 
commend you for what we saw when we went into Iraq and 
Afghanistan and Pakistan, and Kuwait. Our generation was 
called--what? The----
    Dr. Roche. The Greatest Generation.
    Senator Stevens [continuing]. Greatest Generation. Well, we 
spawned a greater generation. Those kids that are out there now 
are much better than we ever were, and they're doing a 
wonderful job, men and women now. And, I'll tell you, it's just 
an absolute privilege to be able to visit them. So we thank you 
for giving us a lift over.
    Dr. Roche. I repeat what John Jumper said, these young 
people are thrilled when you take the time in your schedule to 
spend some time with them.
    Senator Stevens. Both Dan and I wish we could be 
reincarnated right now and see some of these systems and be 
able to fly them. You know?
    I did fly the V-22, yes.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are any additional questions, they will be 
submitted to you for your response.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Question Submitted to Hon. James G. Roche
             Question Submitted by Senator Pete V. Domenici
                         f-117 stealth fighter
    Question. The F-117 Stealth Fighter has provided the United States 
with a low-observable first strike capability for nearly 20 years. On 
day-one, hour-one of Operation IRAQI FREEDOM, Stealth Fighters 
delivered precision munitions on an Iraqi leadership target. F-117s 
also struck highly valuable, heavily defended targets during the 
conflict in Serbia. The F-117 has proven itself to be the ``tip of the 
spear'' of America's military might. The fiscal year 2005 Air Force 
budget proposes to reduce 20 percent of the Stealth Fighter force. (10 
of 50 aircraft) It is my understanding that the Air Force has performed 
a risk-analysis of the proposed retirement. I am concerned, however, 
that this Committee has not had sufficient time to review this 
important Air Force decision.
    Given the F-117's proven capability, do you think it might be 
prudent to delay this retirement decision so Congress has more time to 
gather further information?
    Answer. As you well know the F-117 has served our Nation well for 
many years. We believe it is prudent and timely to retire a specific 
portion of them enabling the Air Force to fully support and sustain the 
remaining aircraft and capitalize on other Air Force transformational 
capabilities. Therefore, we would prefer to act now as outlined in the 
fiscal year 2005 President's Budget. As always, we welcome discussion 
on this and other subjects of interest to you.
                                 ______
                                 
             Questions Submitted to General John P. Jumper
            Questions Submitted by Senator Pete. V. Domenici
                         f-117 stealth fighter
    Question. The F-117 Stealth Fighter has provided the United States 
with a low-observable first strike capability for nearly 20 years. On 
day-one, hour-one of Operation IRAQI FREEDOM, Stealth Fighters 
delivered precision munitions on an Iraqi leadership target. F-117s 
also struck highly valuable, heavily defended targets during the 
conflict in Serbia. The F-117 has proven itself to be the ``tip of the 
spear'' of America's military might. The fiscal year 2005 Air Force 
budget proposes to reduce 20 percent of the Stealth Fighter force. (10 
of 50 aircraft) It is my understanding that the Air Force has performed 
a risk-analysis of the proposed retirement. I am concerned, however, 
that this Committee has not had sufficient time to review this 
important Air Force decision.
    Given the F-117's proven capability, do you think it might be 
prudent to delay this retirement decision so Congress has more time to 
gather further information?
    Answer. As you well know the F-117 has served our Nation well for 
many years. We believe it is prudent and timely to retire a specific 
portion of them enabling the Air Force to fully support and sustain the 
remaining aircraft and capitalize on other Air Force transformational 
capabilities. Therefore, we would prefer to act now as outlined in the 
fiscal year 2005 President's Budget. As always, we welcome discussion 
on this and other subjects of interest to you.
                       supersonic training study
    Question. As you know, the fiscal year 2003 DOD Authorization bill 
began a process of evaluating airspace at Cannon Air Force Base for 
supersonic flight training. The purpose of this study is to provide 
more realistic training for our pilots by allowing them to fly 
supersonic speeds at lower altitudes.
    Can you provide me with an update on the progress of the 
Environmental Impact Study associated with this supersonic training 
initiative?
    Answer. On December 31, 2003, the Air Force began the Environmental 
Impact Statement (EIS) process by having the Notice of Intent published 
in the Federal Register. That was followed by a series of public 
scoping meetings in late January 2004. In December 2004, after 
extensive AF and FAA coordination and review, we expect to publish the 
Draft EIS for public and agency review. Hearings will then be held to 
receive comment on the Draft EIS. A Record of Decision is expected in 
fall 2005.

                          SUBCOMMITTEE RECESS

    Senator Stevens. We're going to reconvene on March 31 to 
consider the President's request for the intelligence 
community.
    Thank you very much.
    [Whereupon, at 11:33 a.m., Wednesday, March 24, the 
subcommittee was recessed, to reconvene at 9 a.m., Wednesday, 
March 31.]

</pre></body></html>
